<html>
<title> - SMOOTH SAILING OR AN IMPENDING WRECK? THE IMPACT OF NEW VISA AND PASSPORT REQUIREMENTS ON FOREIGN TRAVEL TO THE UNITED STATES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





   SMOOTH SAILING OR AN IMPENDING WRECK? THE IMPACT OF NEW VISA AND 
      PASSPORT REQUIREMENTS ON FOREIGN TRAVEL TO THE UNITED STATES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 10, 2003

                               __________

                           Serial No. 108-51

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

89-397              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 10, 2003....................................     1
Statement of:
    Jacobs, Janice L., Deputy Assistant Secretary for Visa 
      Services, U.S. State Department; Michael Cronin, Associate 
      Commissioner for Immigration Policy and Programs, Bureau of 
      Customs and Border Protection, Department of Homeland 
      Security; and Robert J. Garrity, Jr., Acting Assistant 
      Director, Records Management Division, Federal Bureau of 
      Investigation..............................................    13
    Marks, John A., national chair, Travel Industry Association 
      of America; Randel K. Johnson, vice president of Labor, 
      Immigration and Employee Benefits, U.S. Chamber of 
      Commerce; and Richard J. Pettler, partner, Fragomen, Del 
      Rey, Bernsen & Loewy, P.C..................................    67
Letters, statements, etc., submitted for the record by:
    Cronin, Michael, Associate Commissioner for Immigration 
      Policy and Programs, Bureau of Customs and Border 
      Protection, Department of Homeland Security, prepared 
      statement of...............................................    23
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   107
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Garrity, Robert J., Jr., Acting Assistant Director, Records 
      Management Division, Federal Bureau of Investigation, 
      prepared statement of......................................    32
    Jacobs, Janice L., Deputy Assistant Secretary for Visa 
      Services, U.S. State Department, prepared statement of.....    16
    Johnson, Randel K., vice president of Labor, Immigration and 
      Employee Benefits, U.S. Chamber of Commerce, prepared 
      statement of...............................................    78
    Marks, John A., national chair, Travel Industry Association 
      of America, prepared statement of..........................    69
    Pettler, Richard J., partner, Fragomen, Del Rey, Bernsen & 
      Loewy, P.C., prepared statement of.........................    94
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............   106
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     9

 
   SMOOTH SAILING OR AN IMPENDING WRECK? THE IMPACT OF NEW VISA AND 
      PASSPORT REQUIREMENTS ON FOREIGN TRAVEL TO THE UNITED STATES

                              ----------                              


                        THURSDAY, JULY 10, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Tom Davis (chairman 
of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Ose, Lewis 
of Kentucky, Platts, Deal, Miller of Michigan, Waxman, Maloney, 
Kucinich, Clay, Watson, Van Hollen, Sanchez, Ruppersberger, 
Norton, and Bell.
    Staff present: Peter Sirh, staff director; Melissa Wojciak, 
deputy staff director; Keith Ausbrook, chief counsel; Ellen 
Brown, legislative director and senior policy counsel; Robert 
Borden, counsel/parliamentarian; David Marin, director of 
communications; Scott Kopple, deputy director of 
communications; John Cuaderes, Mason Alinger, and Victoria 
Proctor, professional staff members; David Young, counsel; 
Teresa Austin, chief clerk; Joshua E. Gillespie, deputy clerk; 
Shalley Kim, legislative assistant; Corinne Zaccagnini, chief 
information officer; Brien Beattie, staff assistant; Phil 
Barnett, minority chief counsel; Michael Yeager, minority 
deputy chief counsel; Karen Lightfoot, minority communications 
director/senior policy advisor; Earley Green, minority chief 
clerk; Jean Gosa, minority assistant clerk; and Cecelia Morton, 
minority office manager.
    Chairman Tom Davis. Good morning. We expect a journal vote 
around 10:15, so I'm going to get going with my opening 
statement.
    A quorum being present, the Committee on Government Reform 
will come to order. I want to welcome everyone to today's 
hearing on the government's management of security requirements 
for foreign visitors seeking entry to this country. The issue 
of visa delays should come as no surprise to most members. Next 
to issues concerning Social Security, visa problems tend to be 
the most requested issue when it comes to casework within our 
districts.
    The committee continues to be concerned that flawed 
implementation of current and looming security requirements may 
needlessly delay or deny entry of foreign travelers to our 
country for business or tourism. We all agree that homeland 
security is our top priority and, as a result of September 11, 
we need to closely scrutinize visitors to our country. Today 
the committee will examine the entry process for visitors to 
see if there are ways that, without sacrificing security, we 
can mitigate delays that impede legitimate business and tourist 
travel.
    Prior to the September 11 attacks, the State Department's 
visa operations focused primarily on screening applicants to 
determine whether they intended to work or reside illegally in 
the United States. Consular officers were encouraged to 
facilitate legitimate travel and overseas consular sections 
were given substantial discretion in determining the level of 
scrutiny applied to visa applications.
    Since September 11, the U.S. Government has introduced some 
changes to strengthen the security of visa issuance. For 
example, the State Department has increased the types of 
security checks it conducts on applicants and the number of 
agencies involved with those checks. Consular officers are also 
conducting longer applicant interviews and more of them. Along 
with these additional precautions, however, come delays that 
have seriously affected American businesses and our tourism 
industry.
    Longstanding business relationships are being disrupted 
because legitimate travelers attempting to travel to the United 
States cannot obtain visas. Opportunities for new business 
relationships and normal business practices are being blocked 
and personnel transfers within some U.S. corporations are being 
delayed. In addition, U.S.-based foreign employees visiting 
family or traveling who need to renew visas or change them to 
reflect new status are being significantly delayed in their 
efforts to return to work.
    If current delays weren't enough, we understand that 
additional delays are expected. On August 1, the State 
Department will implement new regulations that will further 
reduce the instances in which consular interviews can be waived 
for visa applications. This is expected to change interview 
rates from 10 percent of visa applicants in some locations to 
close to 90 percent of applicants. A cable sent in May of this 
year from Secretary Powell to all diplomatic and consular posts 
states that the Bureau of Consular Affairs expects and accepts 
that many posts will face processing backlogs for the 
indefinite future. Posts are required to use existing resources 
for the interview increase and are not permitted to use 
overtime.
    In some countries, the wait time for interview appointments 
can be several months. For example, one of the consulates in 
India, a country that is the source of many high-tech companies 
and employees, has such a large interview backlog that it is no 
longer accepting appointments for interviews. This means that 
travelers must spend additional time and money to travel to 
alternate interview locations. In some countries the toll phone 
call to set up an interview appointment at the consulate can 
cost a day's wages or more.
    We are here today to understand what steps the State 
Department is taking to minimize the impact this new 
requirement will have on business and tourism in the United 
States.
    Committee staff visited U.S. consular operations in Germany 
and Latvia to see how increased security requirements are being 
implemented at both large and small missions. The embassies in 
both Latvia and Germany have already ramped up interview 
operations to require interviews for over 80 percent of visa 
applicants. The embassy in Berlin uses an appointment system 
that provides applicants an interview appointment within two 
business days of the date of request. The embassy in Latvia has 
set aside 1 day of the week for interviews for applicants 
identified by the local chapter of the American Chamber of 
Commerce as priority applicants. This scheduling accommodation 
will save time for business travelers who need to obtain a visa 
quickly.
    Another example of an innovative idea that minimizes delays 
is the way the embassy in Latvia permits maritime sailors who 
register through a central crewing agency to be granted visas 
safely without interviews. The embassy believes this method 
allows for a secure way to streamline the visa process for what 
amounts to nearly a quarter of the total visa applicants in 
Latvia.
    Under the impending State Department interview 
requirements, such a procedure may require a waiver. The 
committee hopes that the State Department will consider 
reasonable alternate processes that will expedite processes 
without jeopardizing security.
    Another expected source of delays begins in October of this 
year when the USA PATRIOT Act requires visitors to the United 
States to use machine-readable passports to enter the country. 
Although government sources report that many countries are in 
fact producing machine-readable passports, travelers may not 
actually possess them. Travelers who attempt to enter the 
country without a machine-readable passport will be required to 
either apply for a visa to enter the United States or to apply 
for a new passport. I am interested in hearing from our panels 
today about how this new requirement is being publicized both 
here and abroad, what policies are in place for any waivers, 
and what the airlines are expected to do when would-be 
travelers are unable to present machine readable passports.
    I hope that by the end of the hearing today, the committee 
will have a good picture of the important security measures the 
State Department, the Department of Homeland Security, and the 
Federal Bureau of Investigation are taking to protect the 
homeland from foreign visitors who would do us harm. But I also 
hope that we can learn about ways in which potential damage to 
American business and tourism can be avoided or mitigated.
    We have assembled an impressive group of witnesses to help 
us understand the current and expected problems pertaining to 
business travel and what actions are being taken to prevent or 
mitigate delays. We will hear from the Department of State, the 
Department of Homeland Security, and the Federal Bureau of 
Investigation. We will also receive input from the private 
sector, including the U.S. Chamber, the Travel Industry 
Association of America, and the law firm of Fragomen, Del Rey, 
Bernsen & Loewy.
    I want to thank all of our witnesses for appearing before 
the committee, and I look forward to their testimony.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T9397.001
    
    [GRAPHIC] [TIFF OMITTED] T9397.002
    
    [GRAPHIC] [TIFF OMITTED] T9397.003
    
    Chairman Tom Davis. And I now yield to our ranking member, 
Mr. Waxman, for his opening statement.
    Mr. Waxman. Thank you Mr. Chairman. I appreciate you 
holding this hearing because today's hearing is about the 
balance we need to draw between having an open society, one 
that encourages international tourism and commerce, and the 
need to protect ourselves against real terrorist threats. Both 
are important interests. But when we take steps to advance one 
of these interests, we need to recognize that it often comes at 
the expense of the other. That's why we in Congress and the 
executive branch need to be thoughtful and selective about the 
measures we are prepared to take or not take in the name of 
homeland security.
    In the wake of September 11, 2001, Congress passed the 
PATRIOT Act, the Homeland Security Act, and other measures to 
try to elevate the importance of security at home. Some of 
these reforms were necessary and long overdue. In some of these 
instances, however, I think we acted too quickly, giving little 
thought to the consequences.
    The hearing today is going to focus mainly on two security 
regulations that may significantly affect the travel and 
tourism industry, exporters, and other sectors of our economy 
that rely on foreign travelers to the United States. One 
requires that countries participating in the Visa Waiver 
Program issue machine-readable passports by October 1, 2003. 
This is a requirement passed by Congress, and in concept it 
appears to make a great deal of sense. The issue is the 
timetable required by the law and its impact on travelers whose 
governments have not acted quickly enough to issue the new 
passports.
    The other regulation will require consular officers around 
the world to conduct far more interviews of visa applicants, 
possibly causing long delays in the issuance of visas. The 
travel industry and other groups represented here today argue 
that this will add little to our security and will worsen the 
decade-long decline in the U.S. share of world travel. They say 
that it is not clear how the cursory interviews conducted at 
visa windows will really improve our ability to detect 
terrorists.
    Although the numbers are unclear, we know that at least 
some of the September 11 terrorists who obtained visas were 
interviewed by consular officials. One official who interviewed 
one of the terrorists asked how she could be expected to tell 
from the interview that he was bent on committing an act of 
terrorism. That's a good question. Even if these interviews are 
a good idea, it appears the State Department is badly prepared 
for the backlogs and increased workload that will certainly 
follow.
    A cable issued on May 3 to U.S. missions abroad, recognized 
the problems, but indicated that the State Department would not 
provide additional resources. The cable reads, ``Posts must 
implement the new interview guidelines using existing 
resources. Posts should not, repeat not, use overtime to deal 
with the additional workload requirements but should develop 
appointment systems and public relations strategies to mitigate 
as much as possible the impact of these changes.''
    To me it's a recipe for disaster. If the United States is 
going to make this policy change, then the officials 
implementing it need the resources to do the job. Appointment 
systems and public relation strategies are not the answer.
    I welcome all of our witnesses and I look forward to 
hearing from them and receiving their testimony today.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T9397.004
    
    [GRAPHIC] [TIFF OMITTED] T9397.005
    
    [GRAPHIC] [TIFF OMITTED] T9397.006
    
    [GRAPHIC] [TIFF OMITTED] T9397.007
    
    Chairman Tom Davis. Do any other Members wish to make a 
statement? If not we will move to our first panel of witnesses 
and I want to thank them for taking time from their busy 
schedules to be with us today.
    Welcome Ms. Janice Jacobs, the Deputy Assistant Secretary 
for Visa Services, U.S. State Department; Mr. Michael Cronin, 
the Associate Commissioner for Immigration Policy and Programs 
from the Bureau of Customs and Border Protection, Department of 
Homeland Security; and Mr. Robert Garrity, the Acting Assistant 
Director of the Records Management Division of the FBI.
    It's the policy of this committee that all witnesses be 
sworn in before they testify. So if you would rise with me and 
raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. In order to allow time for questions--
your total statement is in the record. We have a light in front 
of you. When the yellow light goes on, that means 4 minutes are 
up and you have a minute to sum up, and if you could move to 
summary and then we can get directly into questions.
    Ms. Jacobs we will start with you and thank you for being 
with us.

STATEMENTS OF JANICE L. JACOBS, DEPUTY ASSISTANT SECRETARY FOR 
VISA SERVICES, U.S. STATE DEPARTMENT; MICHAEL CRONIN, ASSOCIATE 
  COMMISSIONER FOR IMMIGRATION POLICY AND PROGRAMS, BUREAU OF 
CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY; 
AND ROBERT J. GARRITY, JR., ACTING ASSISTANT DIRECTOR, RECORDS 
      MANAGEMENT DIVISION, FEDERAL BUREAU OF INVESTIGATION

    Ms. Jacobs. Mr. Chairman, members of the committee, thank 
you for inviting me to testify before you today on the subject 
of visa policy and its effect on the security of the United 
States, our economic health, and our openness to other 
societies. Clearly these are all significant interests of the 
United States that must be given their proper weight as the 
Department of State and Department of Homeland Security design 
and implement a visa policy that serves the broad goals of our 
country.
    Visa adjudication by consular offices abroad underwent a 
change in the wake of the terrorist attacks on the United 
States on September 11, 2001. While detecting security threats 
to our country was always taken with the utmost seriousness by 
our officers, we had few tools beyond our incomplete watchlist 
to screen for terrorists and other security threats in the visa 
process before September 11.
    Suspicion of illegal immigration was and remains the 
primary reason for turning down a visa applicant, and our 
officers are well trained to do this job. It is hardly 
surprising that their efforts were focused on the well-
documented problem of illegal immigration prior to September 
11, nor should it surprise anyone now that we have shifted our 
priorities toward the security of the visa process in order to 
render it a more effective antiterrorism tool.
    The Department of State has invested substantial time, 
money, and effort in revamping our visa work to serve this end. 
We have doubled our database holdings on individuals who should 
not be issued visas, increased our training efforts to better 
apprise consular offices of counterterrorism issues, set up 
special programs to more fully vet visa applicants of 
particular concern and moved to increase staffing for visa 
positions abroad.
    While you never achieve perfection in this area, I am 
confident that we have a much stronger visa process in place at 
our overseas posts than we had just 1 year ago, and the country 
is safer for it.
    There is a cost for all of this effort and it is not simply 
borne by the Department in terms of greater personnel and 
equipment needs. It also comes at a cost in time and a certain 
amount of inconvenience to visa applicants who must now 
navigate a process that is more rigorous than it has been in 
the past. Secretary Powell has succinctly articulated our 
policy as ``Secure Borders, Open Doors,'' and we at the 
Department are acutely aware of the need to satisfy both of 
these objectives. The U.S. economy counts on the billions of 
dollars spent each year by international tourists. Our 
universities reap the economic benefits of preeminence among 
destination countries for international students. Our 
scientific establishment flourishes in a climate of open 
exchange across borders, and our entire society is accustomed 
to living in a free and open manner that counts upon an ease of 
movement across international borders.
    We are determined to preserve these crucial benefits to the 
United States even as we work to strengthen the visa process. 
Most nonimmigrant visa applicants do not require any special 
check beyond the enhanced consular name check. While processing 
requirements have increased the burden on our officers in terms 
of the data they collect and the checks they must complete, 
most of this occurs out of the applicant's sight and does not 
add appreciably to the time required to make a visa decision.
    Much of the frustration of last summer and fall when we 
were adding requirements without the resources to properly 
handle them has been overcome. But applicants and their 
sponsors often believe that nothing has changed, even when they 
have yet to test the system with a new application. In order to 
keep visas flowing smoothly with the new security requirements, 
we are adding additional officers in the field. We will have a 
net increase of 39 consular officers for fiscal year 2003 and 
another 80 in fiscal year 2004. We have tightened the 
conditions under which we allow posts to waive a personal 
interview by a visa applicant and asked our 210 visa-issuing 
posts to implement this new policy by August 1 of this year. By 
centralizing at headquarters level the decisionmaking authority 
on this issue, we can consult security experts before making 
changes to general guidelines. I will point out that many posts 
have met the new standard already.
    Because most of our posts operate in countries where 
illegal migration to the United States has been a longstanding 
problem, consular officers there were already interviewing the 
vast majority of applicants. Some posts not facing a 
significant problem of illegal migration changed their 
interview policy without prompting from us. London, for 
example, went to an 80 percent interview rate in January of 
this year and was able to implement this policy without great 
stress to either officers or applicants. Clearly, however, 
there are posts in high-volume places that will have a tougher 
time coming into compliance with the policy.
    We are committed to toughening our security screening, but 
also to ensuring that applicants get their visas in a timely 
manner and we will work closely with affected posts such as 
Seoul, Rome, Paris, Tokyo and Taipei to see that both goals are 
attained. We are working to effectively and smoothly implement 
the requirement established by law that any visitors seeking to 
enter the United States under the Visa Waiver Program after 
October 1, 2003 present a machine-readable passport or 
otherwise obtain a U.S. visa, which has long been machine-
readable. We are vigorously publicizing the requirement in the 
VWP countries and our embassies are fully prepared to issue 
visas quickly to VWP citizens unable to obtain an MRP in time 
for any needed travel.
    A number of non-immigrant visa applications, approximately 
2 percent of our workload, are submitted by consular officers 
overseas to the Department of State for Washington-level 
screening by Federal intelligence and law enforcement agencies. 
This is known as the ``security advisory opinion'' process. The 
purpose of the new additional review is to focus on serious 
issues such as hostile intelligence activity, potential 
terrorist threats and access to sensitive technology. The 
Department of State acts primarily as a clearinghouse in this 
process. We have added significant resources to the staff of 
the Visa Office to ensure that we return to posts overseas the 
results of the interagency review promptly upon completion. The 
analytical experts of the Department who review such cases do 
so within 2 weeks.
    We are also spending approximately $1 million to modernize 
the transmission of data in the security advisory opinion 
process to eliminate as much as possible manual manipulation of 
case data and make use of a new interagency network known as 
OSIS. This modernization should be complete by January 2004.
    The Department of State is working hand-in-hand with our 
colleagues at Homeland Security and the Department of Justice 
to ensure we have a visa system that properly recognizes 
threats to the United States in the visa process and stops them 
from reaching our shores. We are working every day with 
business and industry to see that access to our country is not 
impeded for those whose business we want and whose presence we 
value.
    I am happy to answer any questions that you may have. Thank 
you.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Ms. Jacobs follows:]

    [GRAPHIC] [TIFF OMITTED] T9397.008
    
    [GRAPHIC] [TIFF OMITTED] T9397.009
    
    [GRAPHIC] [TIFF OMITTED] T9397.010
    
    [GRAPHIC] [TIFF OMITTED] T9397.011
    
    [GRAPHIC] [TIFF OMITTED] T9397.012
    
    Chairman Tom Davis. We will move to Mr. Cronin.
    Mr. Cronin. Good morning, Chairman Davis, Ranking Member 
Waxman and members of the committee. I am pleased to have this 
opportunity to appear before you today. The focus of my 
testimony will be implementation of the machine-readable 
passport requirement for participation in the Visa Waiver 
Program. The Visa Waiver Program was established on a pilot 
basis in 1986. It allows foreign travelers from certain 
countries to be admitted to the United States as visitors under 
specific conditions and for a limited time without first 
obtaining a nonimmigrant visa.
    As Ranking Member Waxman noted in his opening remarks, 
Section 217 of the Immigration and Nationality Act now requires 
that, barring a waiver, an alien at the time of application for 
admission must be in possession of a valid, unexpired, machine-
readable passport that satisfies the internationally accepted 
standard for machine readability.
    In October 2001, Section 417 of the USA PATRIOT Act 
advanced the deadline for implementation of this requirement 
from October 1, 2007 to October 1, 2003. Although this deadline 
represents the first universal application of the machine-
readable passport requirement, it has been a longstanding Visa 
Waiver Program requirement that countries in the program issue 
or certify their intent to issue a machine-readable passport.
    I would like to clearly note at this point that this 
October 1, 2003 deadline for machine-readable passports is 
distinct from the October 26, 2004 deadline for biometrics in 
passports. Under Section 303 of the Border Security Act, by 
October 26, 2004, visa waiver countries are required to certify 
that they have in place a program to issue passports that 
contain biometrics, and this will be a condition of continued 
participation in the Visa Waiver Program. Also, on or after 
October 26, 2004, any alien seeking admission under the program 
must present a passport that contains biometrics, unless the 
passport was issued prior to that date.
    The use of machine-readable passports is critical to 
efficient border management and to the capture of accurate 
biographical and passport data relating to foreign travelers. 
This capability forms the backbone of the advanced passenger 
information system under which data on arriving air and sea 
travelers is communicated to the Bureau of Customs and Border 
Protection and to our ports-of-entry well in advance of the 
conveyances on which they are traveling. It greatly reduces the 
possibility of human error or misfeasance in capturing and 
communicating data and adds to the integrity of the documents 
presented. This data is used to identify persons seeking to 
enter our country who may present a threat to our national 
security or welfare.
    As noted earlier, the October 1, 2003 deadline was enacted 
in October 2001, following a lengthy period during which the 
Visa Waiver Program countries were required to certify, as a 
condition of participation in the program, that they were 
issuing or preparing to issue machine-readable passports. The 
majority of visa waiver travelers are presently in possession 
of machine-readable passports and will not have difficulty 
meeting this new requirement. Those who are not in possession 
of machine-readable passports will, on and after October 1, 
2003, have to acquire such a passport from their country of 
nationality in order to enter the United States under the Visa 
Waiver Program. Alternatively, persons not in possession of a 
machine-readable passport will have to secure a nonimmigrant 
visa from the U.S. Embassy or consulate in order to enter the 
United States.
    Clearly the Department of Homeland Security is mandated to 
implement this important requirement at our ports-of-entry on 
October 1, 2003, and it is our intention to do so. The 
Department will endeavor to work with interested parties, 
especially businesses associated with international travel and 
with foreign governments, to meet our statutory requirements 
without adversely impacting the vital flow of international 
visitors from Visa Waiver Program countries. We note that under 
the statutory scheme, this mandate extends to transportation 
lines which are signatory to agreements to transport VWP, Visa 
Waiver Program travelers, and which are further required under 
Section 273 of the Immigration and Nationality Act to ensure 
that their passengers are in possession of valid passports and 
visas if visas are required.
    This Department will also work closely with the Department 
of State and with transportation lines to ensure that this 
requirement is widely known and understood by travelers who 
will be subject to it. Though this is not a new requirement, 
having been enacted nearly 2 years ago, it is very different 
from historic documentary requirements for which transportation 
lines have been responsible. Up to now, transportation lines' 
staff have been required to ensure that travelers were in 
possession of facially valid, unexpired passports and visas, if 
visas were required. In the case of visa waiver travelers, 
their passports and machine readability or lack thereof will 
now regulate whether or not a visa is required. Before and 
after implementation of the requirement, we will work closely 
with transportation lines to ensure they have a clear 
understanding of the document-checking requirements for which 
they are liable. We will work with transportation lines to 
provide feedback on what we are seeing at ports-of-entry 
concerning the presentation of machine-readable passports by 
visa waiver travelers.
    I would like to thank the committee for the opportunity to 
present this testimony. The Department of Homeland Security 
welcomes implementation of this provision of the USA PATRIOT 
Act as a necessary step in ensuring that adequate and accurate 
data is available to our inspectors at ports-of-entry and to 
all law enforcement and national security agencies. We 
acknowledge the challenge of implementation of this requirement 
because it does represent a departure from document-checking 
standards. Nonetheless, in our view, it represents critical 
progress toward strengthening our intelligence, border 
protection, and transportation security capabilities and will 
serve as a model for international enhancements in these areas. 
The Department will achieve this security enhancement while 
endeavoring to facilitate the valuable economic and social 
benefits brought to our country by international travelers.
    And I would be pleased to respond to any questions from the 
committee.
    Mrs. Miller. Thank you.
    [The prepared statement of Mr. Cronin follows:]

    [GRAPHIC] [TIFF OMITTED] T9397.013
    
    [GRAPHIC] [TIFF OMITTED] T9397.014
    
    [GRAPHIC] [TIFF OMITTED] T9397.015
    
    [GRAPHIC] [TIFF OMITTED] T9397.016
    
    [GRAPHIC] [TIFF OMITTED] T9397.017
    
    [GRAPHIC] [TIFF OMITTED] T9397.018
    
    Mrs. Miller. We certainly appreciate the testimony thus 
far. As you can see, we have been called to the House floor for 
a vote and I am going to recess at this time and the chairman 
will be back shortly. Thank you very much.
    [Recess.]
    Chairman Tom Davis. Mr. Cronin, I don't want to ignore your 
testimony, but I want to keep things moving.
    Mr. Garrity, I think you're on.
    Mr. Garrity. On behalf of Director Mueller, I want to thank 
you for inviting the FBI to testify this morning. I have 
submitted a detailed statement for the record but will 
summarize the highlights of my testimony this morning.
    My name is Robert Garrity and I have been a Special Agent 
of the FBI for 27 years. Here with me today is David Hardy, 
chief of the Record/Information Dissemination Section which 
handles that part of the FBI's national name check program.
    First, I want to emphasize to you that the FBI is sensitive 
to the impact that delays in visa processing may have on 
business, education, tourism, this country's foreign relations 
and worldwide perception of the United States. At the same 
time, the FBI mission for homeland security requires that our 
name check process be primarily focused on accurate and 
thorough results. This means that there are instances when the 
FBI's review of a visa request must require as much time as 
needed to obtain an unequivocally correct result. Thus we are 
striving to meet the challenges of ensuring the security 
without unduly disrupting legitimate commerce and foreign 
relations to this Nation.
    With these considerations in mind, the FBI is working 
diligently with the Department of State toward the common goals 
of improving the expediency and efficiency of the visa 
clearance process.
    I would like to give the committee some background. And if 
you will refer to the chart in my statement or also on the side 
here, prior to September 11, the FBI processed approximately 
2.5 million name checks per year. For this fiscal year we 
estimate the number to reach 9.8 million requests. This 
represents an increase in excess of 300 percent. We will 
process approximately 200,000 visa name check requests, 
including approximately 75,000 Visas Condor and 25,000 Visas 
Mantis requests.
    I invite your attention to the portions in my written 
testimony to provide a detailed description of the process that 
is used to check the FBI records for information on an 
individual. But in short, the process must resolve whether 
information on a specific individual requesting a visa is 
contained in FBI records and, if so, whether that information 
is such as to raise national security concerns about this 
individual entering the United States. Our goal is to have all 
visa name check requests resolved within 120 days.
    I will show you two other charts that reflect the status of 
visa name check processing for the past year. The second chart 
reflects the status of Visas Condor name checks. For example, 
we received 7,384 requests during the month of June 2003. We 
resolved all but 649 of these requests, a 92 percent resolution 
rate. For the month of May, we received 5,059 Visas Condor 
requests and resolved all about 105, a 98 percent resolution 
rate.
    Our next chart on Visas Mantis shows that we received 2,589 
requests in the month of June and resolved 2,226 or 86 percent 
of them. Visas Mantis are particularly difficult to resolve due 
to a predominance of requests from China and the commonality of 
Asian names. On average, 80 to 85 percent of visa requests are 
resolved in 72 hours. As shown on the graphs, 86 to 92 percent 
are completed in 30 days.
    For both Condor and Mantis visas, 98 to 99 percent of the 
requests are resolved within 120 days. These numbers provide 
you with accurate information to assess whether, both in time 
and numbers, the FBI visa name check process unduly disrupts 
the commerce of this Nation.
    Nonetheless, we are striving to improve the process. 
Working closely with State, we are improving our interagency 
communication processes. This will result in significant 
improvement in the overall visa process. Likewise, internally 
we have made our name check processes much more efficient. We 
continue to aggressively seek additional efficiencies. However, 
the FBI recognizes that it needs a more modern name check 
application to meet the new demands of name checks. That 
process has already begun.
    The FBI also recognizes that the retrieval of record 
information from FBI files constitutes our single greatest 
impediment to a more rapid process. FBI files are currently 
stored at one of approximately 265 locations worldwide. This 
provides some unique challenges to our efforts to be optimally 
effective and efficient. While the FBI's decentralized paper 
records management process does ease field investigations and 
local prosecutions, a process that may have sufficed before 
September 11, those terrorist attacks have forced the FBI to 
shift from parochial investigations to nationwide intelligence 
gathering and sharing. As the FBI is called upon to share and 
jointly investigate complex cases, it must share information 
internally with other cooperating organizations. Currently, 
analysts conducting research on terrorism or intelligence 
topics, who develop leads based on information indexed in files 
located outside Washington, must request those files to be 
retrieved and shipped to FBI headquarters.
    The decentralized records management system hinders timely 
nationwide investigations and information sharing since much 
time and effort is expended simply locating and shipping the 
files across country. These delays have resulted from national 
name check program personnel identifying a file's location and 
then requesting the file from a field office. Time delays mount 
as field office staff search file rooms and ship the needed 
file back to FBI headquarters.
    One possible solution to these problems that the FBI is 
currently exploring would be the creation of a central records 
repository where all of our closed paper files could be located 
and our active files stored electronically. Our frequently-
requested closed files would be scanned and uploaded into our 
recordkeeping system so that agents and analysts worldwide 
would have instant and electronic access to the information 
they need to do their jobs. We believe that the current 
development of new FBI records systems and the establishment of 
a central records repository will have great promise in 
eliminating this problem.
    In closing, I want to emphasize the visa name check 
processing has the direct attention of Director Mueller. The 
FBI has in place the process that provides certainty for 
businesses for their planning purposes. We are striving to 
reduce the time required for a visa name check, yet maintaining 
our primary focus of identifying potential threats to this 
Nation.
    And I would be pleased to answer any questions you may 
have.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Garrity follows:]

    [GRAPHIC] [TIFF OMITTED] T9397.019
    
    [GRAPHIC] [TIFF OMITTED] T9397.020
    
    [GRAPHIC] [TIFF OMITTED] T9397.021
    
    [GRAPHIC] [TIFF OMITTED] T9397.022
    
    [GRAPHIC] [TIFF OMITTED] T9397.023
    
    [GRAPHIC] [TIFF OMITTED] T9397.024
    
    [GRAPHIC] [TIFF OMITTED] T9397.025
    
    [GRAPHIC] [TIFF OMITTED] T9397.026
    
    [GRAPHIC] [TIFF OMITTED] T9397.027
    
    [GRAPHIC] [TIFF OMITTED] T9397.028
    
    [GRAPHIC] [TIFF OMITTED] T9397.029
    
    [GRAPHIC] [TIFF OMITTED] T9397.030
    
    [GRAPHIC] [TIFF OMITTED] T9397.031
    
    [GRAPHIC] [TIFF OMITTED] T9397.032
    
    [GRAPHIC] [TIFF OMITTED] T9397.033
    
    [GRAPHIC] [TIFF OMITTED] T9397.034
    
    [GRAPHIC] [TIFF OMITTED] T9397.035
    
    [GRAPHIC] [TIFF OMITTED] T9397.036
    
    [GRAPHIC] [TIFF OMITTED] T9397.037
    
    Chairman Tom Davis. Let me start the questioning.
    Ms. Jacobs, let me ask you: Our country has a lot of 
interactions with students, athletes, tourists and business 
people from our ally, Israel. Where does Israel stand in regard 
to the Visa Waiver Program? Are there ways the Israelis could 
receive expedited entry into the country? I mean, they have a 
pretty good security screening system just to be there. And I 
talked to the Ambassador. There is a lot of concern over there 
about how that is working. Can you help me with this?
    Ms. Jacobs. The Visa Waiver Program has certain statutory 
requirements that have to be in place before a country can 
join. One of those is a low refusal rate for the visa 
applicants in the country. At this particular time, the refusal 
rate for Israeli nationals is higher than the statutory level 
that's required. And so on that basis, they wouldn't be able to 
qualify at this time. Also----
    Chairman Tom Davis. Can you explain to me what you mean by 
the refusal rate?
    Ms. Jacobs. The refusal rate is the rate of people that are 
turned down for visas that are not found eligible for visas 
because of one of the various provisions.
    Chairman Tom Davis. What's the major reason they're turned 
down?
    Ms. Jacobs. I think in the majority of cases it is because 
they have not been able to overcome the statutory presumption 
that they are intending immigrants, that they are coming here 
perhaps to work, to stay.
    Chairman Tom Davis. Basically be illegal once they come in. 
Come here and disappear.
    Ms. Jacobs. That's one of the problems. DHS is the one who 
decides who participates in the program. All of the countries 
are also looked at. There are several different factors that 
are considered: the integrity of the documents, border 
protection, whether there are any particular security threats 
presented by the nationals of the country. So it's really an 
interagency process where we all look at the different issues 
and criteria to make a decision.
    Chairman Tom Davis. I understand from the Swiss American 
Chamber that Switzerland has a 4-month backlog on getting folks 
machine-readable passports. Is there going to be a State 
Department waiver for folks from that country who don't have 
machine-readable passports? I understand there may be similar 
problems for French citizens who get passports, which I don't 
care as much about. Will there be waivers for those people?
    Ms. Jacobs. As Mr. Cronin mentioned in his testimony, in 
order to join the program all of the countries had to certify 
that they were either already issuing machine-readable 
passports or that they had a program in place to do so. All of 
the countries that are currently in the program have been in 
for over a decade. I think the feeling is they have had 
sufficient time to get machine-readable passports into the 
hands of their nationals.
    Admittedly, some of these countries waited a long time, 
even though they certified they had a program in place. 
Switzerland did not start issuing until 2000. France, I think 
it was 1999. So some of the countries waited a long time before 
starting. Now they are going to be pressed to get the machine-
readable passports into the hands of travelers. Certainly we 
will be prepared to issue visas to people who are not able to 
get machine-readable passports in time for their travel, and 
that is something that all of our posts in the visa waiver 
countries are aware of and trying to take into account as they 
set up their appointment systems.
    Chairman Tom Davis. We have gotten concerns from business 
groups in India and Korea. Are there going to be facility 
upgrades and staffing increases to accommodate increased 
interview requirements there?
    Ms. Jacobs. All of the posts, in addition to the general 
categories of exemptions that we sent out to all of the posts 
whereby they can still waive interviews--the young, the old, 
officials, diplomats, people who already had visas--we have 
already said you don't need to interview those people. Posts 
have come in with additional requests for other categories that 
they can exempt from the interview. Seoul has come in with such 
a request and we are taking a very hard look at that. I think 
it's safe to say we will grant them some additional exemptions. 
We are aware of the business interests there. I think they 
received a lot of referrals through AMCHIN and I think we are 
going to be looking at some of those as people we can waive the 
interview requirement for.
    Chairman Tom Davis. Our committee staff recently visited 
the embassy in Latvia in preparation for this hearing and the 
embassy staff mentioned that they had planned to ask for a 
class waiver for recruitment visas for sailors who had been 
prescreened through Latvian crewmen agencies and have high 
degrees of security. Because crewman visas make up about a 
quarter of the total number of visas issued at the embassy in 
Latvia, such a waiver would allow the staff to devote more time 
to applicants who need more scrutiny. If these crewing agencies 
provide adequate security safeguards, would this be the type of 
program for which the Department might grant a class waiver 
interview?
    Ms. Jacobs. We would certainly take a look at that. I am 
not sure that Latvia has come in with that request yet, but 
when they do, we will certainly take a look at it. Crewmen a 
lot of times apply outside of their own country just because of 
the circumstances, the nature of their work. And so we would 
have to think about whether we could waive that requirement for 
any particular nationality, but it's certainly something that 
we will look at.
    Chairman Tom Davis. Mr. Cronin, can you give me an update 
on the Memorandum of Understanding between DHS and the State 
Department that outlines the responsibilities of the two 
departments with regard to entry policy and procedures?
    Mr. Cronin. The two departments are very, very close to 
being finished with the MOU. It appears to be a matter of 
weeks. Under Secretary Hutchinson and Assistant Secretary Hardy 
have been meeting regularly and discussing the provisions of 
the MOU. Basically, it's designed to outline the roles and 
responsibilities of the two departments in terms of the 
Department of Homeland Security's role in setting visa policy 
versus the Department of State's role in managing and 
controlling consular operations overseas. I am not on the 
negotiating team, but my understanding is that we are down to 
the point of fine-tuning language.
    Chairman Tom Davis. Who at DHS is going to be responsible 
for entry policies?
    Mr. Cronin. Essentially it would be the Director of Border 
and Transportation Security under Secretary Hutchinson who has 
control over the Bureau of Customs and Border Protection and 
the Bureau of Immigration and Customs Enforcement.
    Chairman Tom Davis. Will DHS provide staff at embassies and 
consulates?
    Mr. Cronin. There is discussion within the MOU meetings 
about assignment of DHS staff overseas as the statute requires. 
Staff will be assigned to Saudi Arabia and there's discussion 
about assignment of staff to other locations.
    Chairman Tom Davis. I understand that Customs and Border 
Patrol have implemented programs such as SENTRY and NEXUS, 
similar to programs in the commercial environment, to speed the 
low-risk travelers while enhancing security. Could these 
programs be expanded to other countries?
    Mr. Cronin. Well, in terms of SENTRY and NEXUS, those are 
land border programs, so obviously we are limited to contiguous 
territory. There is a possibility of doing a program similar to 
that in the airport environment. We operated a program like 
that in the past called INPASS. We are working with Canada 
which is looking at developing a program similar to that. And 
there is also a Dutch program currently in existence that we 
are observing very closely.
    Given the nature and speed of the implementation schedule 
we have at the ports-of-entry coming up in the coming year, I 
don't think we are going to be looking at development of the 
U.S. program similar to that in the near term, but it is 
something that is very much--that would be beneficial to the 
process of moving people through the ports-of-entry and in 
which we are very interested.
    Chairman Tom Davis. Mr. Garrity, I have a couple of 
questions for you. When will the FBI have the necessary 
technology in place to be able to receive State Department 
referrals electronically instead of by tape?
    Mr. Garrity. We have the technology in place right now to 
receive names electronically.
    Chairman Tom Davis. Is it being implemented today?
    Mr. Garrity. We are working with State to make sure the two 
systems are compatible. Our system receives most of our names 
electronically.
    Chairman Tom Davis. Does the FBI have long-term plans in 
the area of electronically capturing FBI records so consular 
and border officials can quickly download the security check 
information without having to refer records to the FBI for 
review?
    Mr. Garrity. We have two systems that we are looking at. 
With our fingerprints, and particularly with the Enhanced 
Border Security Act, which will require some biometrics that 
will be run through our criminal justice information systems. 
And the biometrics we plan to use, that will be one way of 
getting almost an instantaneous check against the FBI's 
database of our fingerprint records. The name check that we do 
here for State, UN visas, right now is checks of FBI records; 
whether or not the FBI has an investigation or information on 
an individual. We are looking at putting that in a database to 
be more proactive so that we have information in the database. 
Our system is not set up to capture those names until we 
actually go through the files. So, as we get a name and as we 
are responding to State, we are going to try to start putting 
those in a database so we don't have to do that name again.
    Chairman Tom Davis. Are there ways to avoid duplicates of 
name checks? And by that, when the Commerce Department issues a 
deemed export license for a particular person in a particular 
technology, security checks are required; couldn't that 
security check also be used as a security check necessary for 
visa purposes?
    Mr. Garrity. To my knowledge, Commerce does not check the 
name against us. They make the decision on the technology but 
do not run that name through our name check process.
    Chairman Tom Davis. And Ms. Jacobs, you mentioned you 
vigorously publicize the new visa interview and machine-
readable passport requirements. How is that word getting out, 
outside of publishing it? Are you doing anything else to inform 
the public on these requirements? We keep getting feedback from 
the traveling public that they are not aware of this.
    Ms. Jacobs. We actually are engaging in active outreach in 
getting the word out about the October 2003 requirement for 
MRPs. When the Visa Waiver Program was made permanent, we 
notified posts that everyone would have to enter with a 
machine-readable passport by a date certain. When the Patriot 
Act was passed moving that date to 2003, we went out with a 
telegram to all of our posts advising them of this new 
requirement so they could tell host governments. This year, 
earlier in the year, we sent out another telegram to all of our 
posts asking them to reach out to the host government to remind 
them about the requirement. And by the end of this month we 
will have held press conferences and we will have made--this 
information is posted on our Web site and the Web sites of our 
embassies and consulates abroad. We are going to publish 
something in IATA's newsletter and we are taking a number of 
other steps. We are going to meet also with the embassies to 
let them know or remind them about the requirement.
    Chairman Tom Davis. Thank you. Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    Ms. Jacobs, I and the other members who serve on this 
committee have the benefit of having at least two perspectives 
on this question of visas. On the one hand we look at it from 
the vantage point of broad national policy, and also we look at 
it from the perspective of real individuals who are trying to 
play by the rules and obtain visas. And a big part of our job 
is to help our constituents deal with these visa problems so 
we're able to see which parts of the system work and which 
parts are clearly broken.
    I am going to give you a summary of five cases that my 
office has been working on that all seem to have fallen through 
the cracks of your Department, and I am asking for your 
assistance in resolving them. Nothing else has worked, so I 
hope you will be able to make sure that these matters receive 
immediate attention. They are a few examples of what seems to 
be broken.
    In one case, an immigrant visa petitioned for Ms. Asra 
Sharifi has been pending since June 2002. She was interviewed 
at the Ankara embassy in June 2002. A year has now elapsed and 
my office continues to be told that the case is pending, 
pending a security clearance. Just last week we were told that 
the case is pending an FBI check. But when we checked with the 
FBI, we were told they have no record of ever receiving a 
security clearance request from the State Department. In other 
words, she has fallen into a big black hole.
    And your office confirmed again as recently as yesterday 
that the official policy is applications should be completed 30 
days following an embassy request. So in this case, that means 
the process should have been finalized last July or August.
    I am obviously interested in the specific case, but I am 
also interested in the broader perspective of the problem it 
reveals. I understand, for instance, that the FBI and State 
Department have intentionally not linked their computers and 
the State Department must hand-deliver requests for security 
checks. This sometimes results in inexcusable delays. It seems 
obvious that you can do more to process embassy requests in a 
timely and efficient way. Can you give us specific improvements 
you intend to make?
    Ms. Jacobs. We are working toward, I think both of our 
agencies, working toward eventually doing all of this 
electronically. I agree completely that would speed up the 
process. We are undergoing changes right now within the Visa 
Office. We are spending about $1 million in order to take 
information from our consolidated consular database and put 
that into an electronic format that we can send out to the FBI 
to help speed up this process. We hope to have that in place by 
the beginning of next year and that would essentially eliminate 
the need for these telegrams that come in, which is not a 
terribly efficient way of doing things. So that is something we 
are trying to do and we hope eventually to be able to talk to 
each other completely electronically, because I think that is 
absolutely essential as we do more of these checks.
    Mr. Waxman. Do you prioritize security checks? Are medical 
emergencies given special consideration, and are there 
circumstances in which the security checks can be expedited?
    Ms. Jacobs. There are circumstances. In fact we do expedite 
all the time for emergency cases for people who really need to 
be here for a certain event. The embassies themselves, I have 
asked them to try to give priority in the summer months, for 
example, to students and exchange scholars who need to be here 
by the beginning of the school year. So yes, we have taken 
steps to try to address those situations.
    Mr. Waxman. The chairman has asked about the situation in 
Israel. Here is an ally working with us to combat terrorism, 
and people have gone back and forth between the United States 
and Israel on a regular basis; I have one constituent who 
contacted our office regarding the difficulties his mother was 
experiencing with her tourist visa at the Tel Aviv Embassy. 
This woman happened to have been born in Iraq. She fled to 
Israel to escape religious persecution in the early 1950's. Her 
visa has been undergoing administrative processing for 3 months 
and she missed the birth of her first grandchild. The Bureau of 
Consular Affairs doesn't have any indication as to when this 
visa will be complete and the status of the security check 
process. And this particular woman has been traveling to the 
United States over the past 20 years to visit her U.S. citizen 
children and she's never experienced this problem in the past.
    I have a large population from Russia living in my 
district. One is an academic from the department of physics and 
astronomy at UCLA who contacted us regarding three of his 
Russian associates. They applied for visas at the embassy in 
Moscow in early February 2003, and although two of the visas 
were issued, one is still stuck in this administrative 
processing. And he is part of an important research project at 
UCLA. They cannot begin the project without this individual. To 
me it's reminiscent of the time when I used to go to the Soviet 
Union and they had the bureaucracy there to prevent people from 
leaving. Now we have the bureaucracy run by our government 
preventing them leaving to come here, even though it seems on 
the surface that they should be able to come here.
    How can congressional offices determine what has happened 
with a security check? None of us wants security risks to be 
pushed through the system, but we also don't want legitimate 
applications to be lost. Unfortunately we aren't told by the 
Visa Office if a delay is due to legitimate security questions, 
if a case is still being processed, or if it is lost in the 
bureaucracy. Why can't we get this information?
    Ms. Jacobs. I think probably part of the problem is the 
entire clearance process is an interagency process. The State 
Department serves more as a clearinghouse. Once these telegrams 
come in from the posts, they go to the other agencies involved 
in the name check process. And you know, we have to wait and 
hear back and get a positive response from everyone involved 
before we can go ahead and authorize issuance of a visa.
    And so I think perhaps in the case of the mother in Israel 
that you talked about, born in Iraq, I think in that particular 
case, that probably is a case falling under Section 306 of the 
Enhanced Border Security act, which talks about people from 
countries on the state-sponsored list. There is a new 
requirement for them that takes longer and that perhaps 
explains why her visa is taking longer to get this time.
    Mr. Waxman. On that particular case, if she were a citizen 
of France or Great Britain, having been born in Iraq, would she 
need a visa at all?
    Ms. Jacobs. She would come in under probably the Visa 
Waiver Program if she had a French or UK passport.
    Mr. Waxman. It raises the question in my mind whether it's 
reasonable for us to have this discrimination against Israel, 
which has been as close an ally to the United States as 
countries in western Europe. And to deny a woman the 
opportunity to come here to see her grandchildren being born 
simply because she was born not just in Iraq, but because she 
happens to live in Israel.
    Ms. Jacobs. Right. We are taking a look at Section 306 and 
how it's implemented. At this time it's all undergoing 
interagency review, and that's one issue we are all looking at, 
whether it should be applied to people who are from a country 
but actually have moved and now live in another place as 
opposed to current nationality.
    Mr. Waxman. I know it's a balancing act and we want the 
security of our country to be protected, but we want the 
bureaucracy to do this efficiently, thoroughly, and certainly 
quickly, because people are waiting for determinations and it 
affects their lives. So I am going to send you the information 
about these cases, and it would help us as Members of Congress 
help you to make sure we do the right thing.
    Thank you very much Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Mr. Deal.
    Mr. Deal. Thank you, Mr. Chairman. The comment I heard was 
that you use only the FBI database and there was some reference 
to State records, and I did not understand fully what your 
reference was there. Let me clarify where I am coming from. I 
understand that most States have their criminal records--are 
now being incorporated into the Federal database; is that 
correct?
    Mr. Garrity. Talking about our Criminal Justice Information 
Service Center in Virginia. Yes, sir. That handles our 
fingerprint cards and also our NCIC. That's where most States 
provide their arrest information and disposition of a 
particular case, yes, sir.
    Mr. Deal. Have you also integrated the old INS record base, 
which I presume now is under Homeland Security? And, for 
example, suppose someone has been deported previously from this 
country, but was not processed through the criminal system for 
criminal charges, either at the State or Federal level, but 
deportation was considered as the option in lieu of 
prosecution; do you have those records available to you?
    Mr. Garrity. I believe we do, but let me check. If I am 
answering wrong, I will get back to you.
    I believe that we do have access to that, that there is a 
relationship between those two systems.
    Mr. Deal. All right.
    Another area that is of concern growing out of September 11 
is the student visa program. Would any of you choose to comment 
on several aspects of that, first of all, the responsibility of 
the institution in the United States, the educational 
institution to which these students are supposedly going, both 
in the initial application process and then with regard to any 
followup requirement that we have tried to tighten up on?
    Would you comment on that part of the process?
    Mr. Cronin. Let me start by saying, Congressman, that I am 
not an expert in the area. There is a whole separate office 
working on implementation of the student and exchange visitor 
information system.
    My understanding is that, yes, there is much greater 
regulation now on the issuance of certificates of eligibility 
to students. The schools basically have to communicate to the 
Bureau, I think it is the Bureau of Immigration and Customs 
Enforcement, that the student has been accepted in the school; 
they have to identify the student. That student has to have 
documentation when he or she arrives which indicates that nexus 
has occurred between the student and the school.
    And, of course, under the implementation of the new system, 
the tracking begins with visa issuance overseas, through the 
port-of-entry and through arrival at the institution.
    Mr. Deal. So it is much more thorough followup, both from 
the beginning through the end of the process, than it was?
    Mr. Cronin. Absolutely, sir.
    Mr. Deal. Mr. Garrity, with regard to background checks, I 
presume that in large part you have to rely on the 
recordkeeping of the country from which these individuals are 
coming for background information of what they may or may not 
have done in their homeland?
    Mr. Garrity. No, sir. The background investigation that we 
do, or the name check that we conduct, is against the FBI's 
records. Does the FBI have a record of having conducted an 
investigation on this individual, or was this individual 
mentioned as a reference in an FBI investigation?
    It is not going to other countries and seeking information.
    Mr. Deal. What responsibility, if any, is placed on the 
Nation from which this individual is coming to provide that 
kind of information in the initial screening process, or is 
there any requirement?
    Mr. Garrity. That would be from Ms. Jacobs, at the 
interview process. I am not certain.
    Ms. Jacobs. For the student visas on the interviews?
    Mr. Deal. No, I am talking about all visas.
    Ms. Jacobs. You are asking about the requirement for 
additional interviews?
    Mr. Deal. Well, let's take somebody that is coming from a 
country, that has a lengthy criminal record--murder, 
manslaughter, armed robbery--and they come in and apply for a 
visa. Now, they are probably not going to show up on the FBI's 
list, because they didn't commit those crimes in the United 
States.
    What responsibility is there and what verification system 
do we have in place to determine that background in the initial 
application process? Is there any responsibility placed on that 
country?
    Ms. Jacobs. Most of the responsibility is placed on the 
applicant to establish his or her eligibility for the visa. 
There are forms, application forms that the applicant fills out 
that ask specifically about various grounds of ineligibility to 
include any criminal activity, other types of activities that 
would make them ineligible under our law.
    Mr. Deal. So we assume then, that a felon is going to 
truthfully answer those?
    Ms. Jacobs. We assume that in large part.
    We also have very good relations with law enforcement 
entities in the countries where we have embassies. Sometimes 
they do share information with us, and we would have that 
available to us.
    Any time we got information like that, we would go ahead 
and put it into our look-out system, so if this person came in 
to apply, we would know about it.
    Mr. Deal. But the bottom line is, it sounds like there is 
no obligation on the country to provide that information, and 
that there is no effort to seek out that information within the 
country of origin.
    Ms. Jacobs. There is. Certainly, if we suspect anything, 
then we go to the host government to get more information; and 
we do expect them to be responsive, and they usually are. I 
should say for immigrant visa applicants, they do in fact have 
to present a police certificate, a clean record if you will, 
before they get a visa.
    Mr. Deal. So there is a distinction between the types of 
applications then?
    Ms. Jacobs. Yes.
    Mr. Deal. Thank you.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Ms. Watson.
    Ms. Watson. Thank you, Mr. Chairman. And thank you, panel. 
I am very interested in the visa process, having had some 
experience with it in the past. And I am concerned about maybe 
profiling, and I am concerned about the impact on the travel 
business and the free flow.
    First, the problem that Congressman Waxman mentioned, the 
people he has been trying to help. Why would somebody be held 
up a year? What would be the process that would stall that visa 
approval for a year? That is the first question.
    Can you respond, Ms. Jacobs?
    Ms. Jacobs. No one should be held up for a year; I should 
say that. Back last summer when we were instituting a lot of 
these new procedures, the agencies involved did not necessarily 
have all of the resources needed to handle the enormous growth 
in cases that we had; and I think there were a number of cases 
that were backlogged at that point. And I don't know if the 
particular case in question would fall in that category or not.
    Sometimes another agency has a serious concern about an 
applicant, and then, as Mr. Garrity said, they will take 
whatever time they need to go ahead and complete their 
analysis, their research, before they get back to us with an 
answer.
    So I don't know if that particular case falls in that 
category.
    I can tell you that the visa office now, once a case gets 
beyond a certain time and we have not heard back from agencies, 
we go back to them and ask what the status is.
    So we are putting out those reminders.
    Ms. Watson. So you can go into the system on a specific 
case, because I would think that the time ticking on this 
raises the suspicion that there is something not quite right 
about this applicant.
    Ms. Jacobs. That could very well be, and I look forward to 
getting the details on the case, so we can look into it.
    Ms. Watson. Are the visa applications coming from a certain 
region in the Middle East treated differently--and I am reading 
your list of visa types--than some of the other kinds of visa 
applications? Are we targeting areas where we have troubles, 
disputes, or we know that there are people who are trying to 
defraud the system and so on?
    But are we looking at these troubled areas differently?
    Ms. Jacobs. I think after September 11 that there was an 
interagency process to take a look at applicants who might be 
higher risk than others; and in fact there was a new check, 
security check, instituted in January 2002, called Visas, which 
really gets at those types of applicants, the ones considered 
to be of highest risk.
    So I think, yes, the answer is that after September 11, we 
are doing more checks of people that we consider to be high 
risk.
    Ms. Watson. Is there, and I think there has been, a quota 
placed on visa applicants and visa approvals in various 
countries?
    Ms. Jacobs. No. We have never--our immigrant visa system is 
based on worldwide limits, and in that regard there is----
    Ms. Watson. Can you explain ``worldwide limits?'' I guess 
that is what I am getting to, using the wrong language.
    Ms. Jacobs. OK. For people coming here for temporary 
reasons--businessmen, tourists, students, visitors, people of 
that sort--there is no quota at all. Everyone comes in, 
applies, and either does or does not qualify for the visa based 
on the merits of the case.
    For the immigrant system, there is a law set as a worldwide 
cap on the number of people who can come in, and then within 
that cap we control the numbers of visas that are issued every 
year.
    Ms. Watson. Let me give you a for instance.
    My office gets quite a few contacts on visa issuance from 
the continent of Africa. When you talk about worldwide limits, 
what are the criteria that are used to put a limit on, say, 
countries from the continent of Africa versus Western 
countries?
    Ms. Jacobs. There is no--it is a per-country cap. It 
doesn't apply to any particular region. It is a worldwide cap 
that is set by law.
    Ms. Watson. OK. Well, let's deal with the continent of 
Africa.
    Ms. Jacobs. Every country in Africa would have a certain 
number of immigrant numbers allowed every year, as would any 
other country. There is no--it is not divided up by region. 
There is no difference between the regions.
    Ms. Watson. What is the meaning of the ``worldwide limit?'' 
Give me a definition.
    Ms. Jacobs. That is a cap that the law puts on the number 
of immigrants who can come into the country in any year.
    Ms. Watson. Who can come into the country?
    Ms. Jacobs. Who can immigrate, who can move here 
permanently.
    Ms. Watson. It is taken nation by nation?
    Ms. Jacobs. It is a worldwide cap. And to distribute the 
numbers evenly, it is done on a country; there is a maximum 
number that each country can use.
    Ms. Watson. That is what I would like to know more about. I 
will put a request for information in writing.
    Ms. Jacobs. OK.
    Ms. Watson. Thank you, Mr. Chairman.
    Chairman Tom Davis. Who was next over on this side?
    I think Mr. Ruppersberger was here, Mr. Bell, and then Ms. 
Sanchez.
    Mr. Ruppersberger. Thank you, Mr. Chairman.
    First thing, the issue of consular offices that are 
checking on the visa applicants. Do those consular offices have 
the technology and the information readily available to 
determine if a waiver should be granted?
    In other words, what I am getting to, is the amount of 
volume that you deal with, is the technology there to do what 
is needed to be done in the consular offices throughout the 
world?
    Ms. Jacobs. Consular officers have a number of automated 
tools to help them do their job. We have given them 
computerized systems that help them in the adjudication 
process, help them speed up data entry, help them speed up and 
do name checks, do the telegrams that have to come back for 
name checks; all of that is automated.
    So, yes, I think we have tried to automate as much of the 
processing as possible to make it easier for them.
    Mr. Ruppersberger. As much as possible. What I am getting 
to next is the issue of, say, a terrorist suspect who might be 
trying to get into the United States.
    Are the databases sophisticated enough that the consular 
office at that front line would be able to check on these 
suspects?
    Ms. Jacobs. Everyone who comes for a visa is checked 
through our look-out system. And that system has doubled since 
September 11 because of all of the information that we have 
received from other agencies.
    On terrorists in particular--that particular category of 
look-out has increased substantially since September 11--we 
depend on the other agencies to provide us the information. And 
we have had--after September 11, as I said, the database itself 
has actually doubled because of all of the increase in data-
sharing that has taken place.
    So, yes, if another agency knows about or suspects that 
someone is a terrorist and has shared that information with us, 
that information would be readily available.
    Mr. Ruppersberger. In the average situation, if someone is 
there, does that system tie into, say, an FBI system or to your 
own intelligence-type system or to CIA?
    Are we sophisticated at that front level with our 
technology?
    Ms. Jacobs. Right.
    Mr. Ruppersberger. Probably not.
    Ms. Jacobs. No. The system doesn't actually tie into the 
FBI or CIA, but we do have a very healthy system whereby CIA 
shares information with us, on terrorists in particular. It is 
called the tip-off system, and we know immediately how to 
handle those cases. They come back to Washington for a review.
    Mr. Ruppersberger. It is almost like the issue of port 
security. You have to deal with it at the beginning stage, and 
this is the front line. And it seems to me that we should be 
working a lot closer.
    I think that the--in my experience, being around in 
government and law enforcement, that the CIA, the FBI, the NSA, 
local, State, they are all working together, and better than I 
have ever seen it, because there always were some territorial 
disputes.
    But in the volume that you have and that we have to deal 
with, it seems that we have to start really focusing on the 
resources of technology and tie into that system so there will 
be red flags or alarms that will be set off right away. And 
that would help.
    OK. Let me get into another area, because I won't be here 
for the second round. The issue of reaching out to the business 
community with respect to what we are talking about. We need a 
balance. We have to keep our commerce going. But, you know, 
since September 11 a lot of things have changed. So we have to 
have that balance.
    I just know in the area of--the region that I represent, we 
have two major teaching hospitals, Johns Hopkins and University 
of Maryland--thousands and thousands of employees there; I 
think Johns Hopkins is 20,000 or so--and constantly they have 
individuals that need to come, from a research point of view or 
whatever; and it is as important to them, I am sure, as to 
other businesses.
    Has there been a--some type of government program to reach 
out to the business community to try to understand the issues, 
other than just a hearing like this, and maybe even reach out 
to the business community to help us develop systems that would 
help and expedite, and also ask the business community to even 
help from a financial point of view?
    It seems to me that a partnership here might really make a 
difference and get things moving a lot quicker than just the 
typical government bureaucracy situation.
    Ms. Jacobs. We at the State Department have made a special 
effort, I think, to meet with business, to meet with the travel 
and tourism representatives, to meet with the schools, 
academics, people interested in bringing researchers and 
scientists here to the country. Assistant Secretary Harty has 
met with these groups, I have met with them, and we have tried 
very hard to explain to them why we are doing what we are doing 
now with these new security requirements.
    And we do listen to them. We have a very I think healthy 
exchange on problem cases that we are trying to resolve 
together.
    Mr. Ruppersberger. It seems to me that that needs to be a 
strong effort and hopefully we will move forward there.
    Thank you.
    Chairman Tom Davis. Thank you very much.
    Mr. Bell.
    Mr. Bell. Thank you, Mr. Chairman. And thank you very much 
for holding this hearing on what I think is an extremely 
important issue. I want to followup on some of the questions 
raised by my good friend from Maryland, Mr. Ruppersberger, 
because it is not just the travel and tourism industry that is 
suffering under the new rules. Obviously, there are businesses, 
primarily in the medical community, who are experiencing 
extreme consequences as a result of the new measures.
    I represent a District in Texas that has the largest 
medical center in the world, the Texas Medical Center. And they 
are routinely calling about various problems that they face. 
And the problems are really twofold. And Ms. Jacobs, I think 
you are aware of this, because you appeared before the Science 
Committee last March, and many of these issues were raised; and 
we have doctors and researchers who have come to the United 
States on various types of visas and return home for personal 
reasons and then find that they can't get back to the United 
States, causing significant personnel problems for the various 
institutions as a result.
    And, of course, then you have foreign patients. And the 
Texas Medical Center had relied for a long time for a 
substantial portion of their business on patients coming from 
the Middle East; that was one of the primary areas where 
patients would come from.
    And now these patients can no longer afford to wait for an 
answer and are going to Europe to seek care in many instances. 
And I heard just this week that Middle Eastern nations, 
realizing the situation, are now reaching out to medical 
institutions here in the United States and asking them if they 
would like to come and partner with existing medical 
institutions in the Middle East to offer care there so people 
won't have to come to the Middle East.
    And so from my standpoint, while we are all interested in 
increased security and salute and support those efforts, I 
think it is fairly clear that we are starting to enter into the 
unintended consequences stage. I don't think it was ever the 
intent of officials in the United States to be sending business 
back to the Middle East, business that would have been coming 
to the United States, or to severely impact tourism dollars in 
the United States.
    And when you appeared before the Science Committee, Ms. 
Jacobs, it was my understanding that the State Department was 
well aware of those problems, that you were taking them into 
consideration and that steps would be taken to do something 
about the problem.
    And so I ask you here today, what has been done in these 
last almost 4 months?
    Ms. Jacobs. We have taken, I think, a number of steps on 
cases, especially unresolved cases as I mentioned earlier, to 
continue following up with the other agencies involved in the 
name check process, to make them aware that certain cases have 
been pending for a long time.
    We have, I think, engaged in outreach in all of the 
countries about visa requirements, the processing requirements. 
I know that within the appointment systems, that are being set 
up by posts, that they do give consideration to people for 
medical cases, for example, true emergencies, people who need 
to come here quickly. So I think that within the system, we are 
taking the steps that we can to try to expedite processing.
    I think once we have more electronic data-sharing between 
the name check agencies that a lot of these problems are going 
to be resolved.
    Mr. Bell. And as far as data-sharing goes, what steps are 
being taken to perhaps expedite that process?
    Ms. Jacobs. We at the visa office, at least as a 
preliminary step, are trying to eliminate the need for 
telegrams. We are trying now to use our consolidated database 
to extract people who need name checks and pass that 
information on electronically to the other agencies involved in 
the name check process. We hope to have that up and running by 
the beginning of next year.
    Eventually we hope that we are all talking to each other, 
perhaps through the new system that has been set up, the OSI 
system.
    Mr. Bell. What about an idea that I think was mentioned and 
discussed at the Science Committee hearing, this idea of a 
medical--a special medical visa. Has that been pursued at all 
or discussed further?
    Ms. Jacobs. I am not sure that we did discuss a specific 
visa for medical cases. Normally, we have to use the visa 
categories that exist in the immigration law. So there wouldn't 
be a way to create a new category. But certainly we can take 
steps for true emergencies to try to get those cases handled as 
quickly as possible. I think all of our embassies and 
consulates do that.
    Mr. Bell. Why could a new category not be considered, if 
the need is appearing to be so great that we need to move in 
that direction?
    Ms. Jacobs. I think it could be considered. I think it is 
something that would require legislative action to create a new 
category.
    Mr. Bell. Is that anything that has been discussed by the 
State Department?
    And tell me, do you believe I am off base? Are these just 
unique circumstances because I represent an area with a medical 
center, or are these complaints that you all are hearing all 
across the Nation?
    Ms. Jacobs. Well, I think that they probably tie in with 
the other complaints that we have heard about visa delays in 
general. I think all of these are because of all of the new 
security checks that have been put into place after September 
11.
    I think, to the extent that all of us can make this an 
electronic process, it is going to eliminate a lot of the 
problems that occur now because of technical glitches, the need 
to manually enter data, manipulate data; I think that is the 
real answer here.
    Mr. Bell. And, Mr. Chairman, I know my time has expired.
    Let me just close by saying, I hope, because I would 
disagree that it is just outreach efforts--the people that I 
represent, they understand what is required, but they also 
understand what is it doing in real-life terms to their 
businesses; and I hope that we are not just giving lip service 
to it and that in another 4 or 6 months you will be back before 
this committee or another committee testifying to the same old 
problems.
    Some of the processes are going to have to change in order 
to deal with the problem; and I hope that the State Department 
understands that and will be taking the necessary steps. Thank 
you.
    Ms. Watson. Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Let me say--I am going to recognize Ms. Watson in a 
second--one out of five adults in my congressional district was 
born in a foreign country. This is impacting their lives as 
well. So a lot of us have a keen interest in this, and we are 
going to continue to watch it vigilantly. And that is why we 
appreciate your being here, but there is a lot of concern that 
we hear from our constituents. So I appreciate your questions.
    Ms. Watson.
    Ms. Watson. Just a clarification on this issue.
    Under your visa types, you have a B2 visa. And I don't know 
if it would relate to the Congressman's question or not. But it 
says ``for aliens coming for medical treatment.'' Could that be 
a visa category that could be extended for students coming in 
for medical school or for other kinds of related medical 
reasons?
    I am just wondering if the B2 type could be used for his 
suggestion or recommendation.
    Ms. Jacobs. The B2 visa is, in fact, the one that we do use 
for people coming for medical treatment or medical emergencies. 
There is a different category for students. There is a long 
alphabet of different types of visas. But, yes, there is a visa 
category right now that would allow people to come here for 
medical treatment.
    Ms. Watson. Rather than developing a new category, could 
this not be extended or broadened and fit into the B2 category?
    Ms. Jacobs. I think it is already included.
    Ms. Watson. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Mr. Clay, any questions?
    Mr. Clay. Thank you, Mr. Chairman. Let me ask about--Ms. 
Jacobs, the worldwide limits on visas. Let's take the continent 
of Africa. Do you have limits on the number of visas issued for 
people that come from the continent of Africa?
    Ms. Jacobs. No, sir, we don't. For nonimmigrant applicants, 
there are no limits there.
    There are certain categories of temporary workers where 
there are limits set by Congress, but again, those are 
worldwide; they do not apply to any particular region or 
continent.
    The immigrant visas are by law set at a certain--there is a 
certain cap each year on the number of people who can come in 
as immigrants, and those numbers are distributed among the 
different countries equally. There is no difference between 
what an African country would get, or any other country.
    Mr. Clay. So there is a cap that they hit, and then you 
shut it off? Is that what happens?
    Ms. Jacobs. Right.
    Mr. Clay. Let me ask Mr. Garrity, how long does it take--
what is the running time when a visa expires, and I guess you 
all are notified and then the--I mean, what is the running time 
as far as finding this person whose visa has expired and then 
processing it, I guess for deportation or whatever?
    Mr. Garrity. I think you want to direct that question to 
Mr. Cronin.
    Mr. Clay. OK, Mr. Cronin, if you could help me with that.
    Mr. Cronin. Sure, Congressman.
    Basically, we do try to prioritize the cases that we track 
in terms of persons overstaying their visas, to look if there 
are national security implications, to look if there are other 
priority indicators that would necessitate actual dispatch of 
agents to attempt to locate the individual, to arrest him, to 
deport him.
    There are a large number of overstays. We have--the Bureau 
of Immigrations and Customs Enforcement has roughly something 
on the area of 5,000 agents nationwide to enforce the 
immigration and customs laws. So there is a necessity to 
prioritize those cases, to be sure we are focusing on persons 
who are criminals, who present security threats.
    Basically those are the cases that would trigger the kind 
of proactive investigation of an overstay. Certainly we have 
individuals who encounter local law enforcement, who might come 
into an immigration office or something like that, but 
basically there is no set period or no set time during which 
this would happen.
    It is a matter of prioritization on an enforcement basis.
    Mr. Clay. What is your success rate of locating these 
individuals?
    Mr. Cronin. I would have to get back to you on that, in 
terms of specific data. I can't give it to you off the top of 
my head. But generally if there is a case of this nature, I 
think the success rate is fairly high. The agents are fairly 
unflagging in their attempt to locate and find those 
individuals when a specific threat is indicated.
    Mr. Clay. What is the running time as far as locating them?
    Mr. Cronin. That would vary from case to case, Congressman. 
I really can't give you a specific number.
    Mr. Clay. So you prioritize individuals based on background 
and criminal information, and then, what, you go out and find 
them? And----
    Mr. Cronin. They will go out and attempt to locate the 
individual.
    Mr. Clay. But you can't tell me how successful you are in 
getting them?
    Mr. Cronin. Again, as far as I know, when the agents are 
looking for someone specifically, when there is a national 
security reason to locate someone, there is--I mean, there is 
no limit to the efforts that are placed on trying to locate the 
individual.
    They are certainly not always successful. And I can't give 
you--and I am not sure that there would be a way to give an 
estimate or data on the success rate in terms of that.
    Certainly I will go back and attempt to get whatever we 
have on that.
    Mr. Clay. I would like to see it.
    We have got visa types, a little sheet here. What types of 
visas did the hijackers of September 11 have?
    Mr. Cronin. If I recall correctly, I think one had a 
student visa. Most of the others entered as visitors.
    Mr. Clay. As visitors?
    Mr. Cronin. Yes.
    Mr. Clay. That stay is for how long?
    Mr. Cronin. Normally it would depend on the category. A B1 
visitor for business is admitted for a period of time set by 
the inspector at the time port-of-entry. That can vary 
according to what the person states the nature of their 
business is and how much time they need.
    Persons coming in as tourists under a B2 visa are 
automatically admitted for 6 months.
    Mr. Clay. All of theirs had expired, correct?
    Mr. Cronin. No. No. Several were in status.
    Mr. Clay. In status. All right.
    Thank you very much.
    Chairman Tom Davis. Thank you.
    Ms. Miller, any questions?
    OK. We will move on to the next panel. Why don't we take a 
2-minute recess and get the next panel up. Thank you very much 
for staying with us.
    [Recess.]
    Chairman Tom Davis. Thank you very much. We have our next 
panel.
    If you will rise with me, it is the policy of the committee 
that the witnesses be sworn.
    [Witnesses sworn.]
    Chairman Tom Davis. Please be seated.
    I think you know the rules, 5 minutes, and then we can get 
right to questions. There is a lot of interest among committee 
members on this subject, and we very much appreciate your being 
here today.
    Mr. Marks, we will start with you and move straight on 
down.

 STATEMENTS OF JOHN A. MARKS, NATIONAL CHAIR, TRAVEL INDUSTRY 
 ASSOCIATION OF AMERICA; RANDEL K. JOHNSON, VICE PRESIDENT OF 
   LABOR, IMMIGRATION AND EMPLOYEE BENEFITS, U.S. CHAMBER OF 
 COMMERCE; AND RICHARD J. PETTLER, PARTNER, FRAGOMEN, DEL REY, 
                     BERNSEN & LOEWY, P.C.

    Mr. Marks. Thank you very much, Mr. Chairman, Ranking 
Member Waxman and members of the committee. I appreciate the 
opportunity to testify before you on several recent decisions 
by the Federal Government concerning visa processing and entry 
into the United States for international visitors.
    My name is John Marks. I am national chairman of the Travel 
Industry Association of America. And I am here to testify on 
TIA's behalf. I am also the president and CEO of the San 
Francisco Convention and Visitors Bureau. TIA is the national 
nonprofit organization representing all components of the 
travel and tourism industry whose mission is to promote and 
facilitate increased travel to and within the United States.
    International business and leisure travel to the United 
States is a vital component of our national economy. In 2002, 
over 41 million international visitors generated some $88 
billion in expenditures, $12 billion in Federal, State and 
local tax revenues, accounted for 1 million jobs nationwide, 
and a $7.7 billion positive balance of trade.
    The U.S. travel industry is struggling to survive in an 
environment where international travel to the United States is 
down nearly 20 percent since the terrorist attacks of September 
2001. U.S. jobs have been lost. Despite this dire situation, 
the U.S. Department of State has decided to move forward with 
two new initiatives without sufficient resources and without 
the necessary outreach and communication. If implemented as 
planned, we believe these initiatives will deter legitimate 
low-risk international travelers from visiting our Nation.
    The government's decisions are, first, to increase the 
number of personal interviews for nonimmigrant visa applicants 
and, second, to require a machine-readable passport for Visa 
Waiver Program travelers.
    I would like to emphasize, we support efforts to improve 
U.S. national security, but we also believe there must be a 
better balance that also recognizes the need to promote U.S. 
economic security.
    While personal interview rates now vary, I look to South 
Korea as an example of how the interview rule will hurt 
international travel to the United States. Only 27 percent of 
business and tourist visa applicants are currently interviewed. 
If a 100 percent visa interview policy were to be implemented 
for the U.S. Embassy in Seoul with no additional resources, TIA 
estimates this would result in a loss of approximately 114,000 
travelers, or one of every six Korean visitors. Financially, 
this would mean a loss of $205 million in expenditures from the 
South Korean travel market alone.
    Expand this to other travel markets, and I think it is easy 
to see how the increase in interviews will cost the U.S. travel 
and tourism industry hundreds of millions of dollars and 
thousands of lost jobs.
    The second decision concerns the Visa Waiver Program. By 
law, starting October 1, 2003, Visa Waiver travelers must 
possess machine-readable passports for entry into the United 
States. We support increasing the number of machine-readable 
passports in circulation. However, this new requirement will 
affect millions of international travelers, particularly in 
countries which have only recently begun issuing machine-
readable passports.
    The State Department was granted the authority to waive 
this deadline in the event it would disrupt travel from those 
countries that had just started issuing the newer passports. 
The travel industry is absolutely dismayed to learn that the 
State Department will not utilize this authority. The State 
Department only recently announced this decision to the 
international traveling public.
    With travelers booking their trips as far in advance as 6 
months and travel companies making their business plans and 
purchases even father in advance, a 3-month notice is just 
insufficient. This lack of communication is particularly 
problematic for the U.S. airline industry, which is required by 
law to board only travelers who hold valid documentation.
    The lack of communication on this rule even extends to the 
Department of Homeland Security. As of mid-June, Homeland 
Security officials were not prepared to state whether arriving 
visitors with the older, nonmachine-readable passports would be 
deported or allowed to enter the United States.
    TIA calls on the State Department to implement immediately 
the following solutions to avoid serious disruption in 
international travel to the United States: TIA requests the 
Secretary of State to delay implementation of the increase in 
personal appearances for nonimmigrant visa applicants until 
such time as additional resources are requested and received 
from Congress.
    An increased rate of personal interviews should be phased 
in only as additional personnel and facilities are made 
available at each consulate and embassy.
    TIA urges the Secretary of State to exercise the waiver 
authority granted by Congress and delay the machine-readable 
passport requirement by at least 18 months for countries that 
have begun issuing machine-readable passports in 2000 or later.
    In conclusion, TIA and the U.S. travel industry strongly 
support the efforts of the Federal Government to protect our 
homeland. We stand ready to work with Congress and the 
administration to develop and implement policies that prevent 
the entry of terrorists, while truly facilitating the entry of 
tens of millions of legitimate business and leisure travelers 
who provide a great economic, social and political benefit for 
this country.
    Thank you, Mr. Chairman and members of the committee. I 
look forward to your questions.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Marks follows:]

    [GRAPHIC] [TIFF OMITTED] T9397.038
    
    [GRAPHIC] [TIFF OMITTED] T9397.039
    
    [GRAPHIC] [TIFF OMITTED] T9397.040
    
    [GRAPHIC] [TIFF OMITTED] T9397.041
    
    [GRAPHIC] [TIFF OMITTED] T9397.042
    
    [GRAPHIC] [TIFF OMITTED] T9397.043
    
    [GRAPHIC] [TIFF OMITTED] T9397.044
    
    Chairman Tom Davis. Mr. Johnson.
    Mr. Johnson. Mr. Chairman, members of the committee, I 
would like to extend our thanks to you and the other members of 
the committee for holding this hearing on projected problems of 
delayed entry for foreign nationals traveling to the United 
States for legitimate business purposes, with a particular 
focus on the visa issuance process.
    I am Randel Johnson, vice president for labor, immigration 
and employee benefits for the U.S. Chamber. And let me note 
that I do represent the Chamber on the Data Management 
Improvement Act Task Force, which was established by the 
Congress to study entry and exit problems at our Nation's 
borders; I am Chair of the Americans for Better Borders 
Coalition; and I am a member of the Board of Directors of the 
National Immigration Forum.
    Well, as other speakers have made clear, we are all aware 
of the new environment in which not only businesses but all of 
us must live post-September 11. The need for security to 
protect our homeland is very real, and the U.S. Chamber has 
been part of that role.
    We pledged our support to the administration early on, and 
to the Congress. We are still working with them. We worked 
closely on the development of the Department of Homeland 
Security legislation, and ``key voted'' that legislation in 
support in both the House and the Senate.
    Now, at that time, certain provisions, as many of you know, 
were included in the legislation, which reassured, I think, 
quiet concerns among the business community that in 
implementing the Department, many would pursue a Fortress 
America mentality and would not weigh the potential negative 
economic impact on the country as a whole, which could result 
from significant increases at our borders, in delays at our 
borders.
    And since the Homeland Department has come up and running, 
the decisionmakers within the government certainly have 
repeatedly assured those of us on the outside that the 
government will continue to search for ways to both expedite--
to improve security and to expedite or at least not 
significantly hinder legitimate international commerce, travel 
and immigration.
    However, I believe that the common concern or thread that 
you will hear today is a growing perception among the private 
sector that words are not matching the policies that have been 
announced, and that the policies coming down the road--many of 
which you went over in your opening statement, Mr. Chairman.
    For example, I have just returned from a trip to El Paso, 
as part of my work on the DMIA task force, and these people--we 
met with various stakeholders in the community, and the State 
and local governments, and these people have the view that the 
government is simply not listening to their concerns. And they 
are in a state of panic looking at what the new entry/exit 
system may look like.
    That is not atypical of experiences I have seen up in 
Buffalo and Detroit. There is concern that no one is listening, 
much less understanding that there is a way of life, there are 
questions of the environment, and the fabric and the future of 
a community are at stake here when these government decisions 
are made.
    Now, none of this is to demean those in the government 
agencies that are struggling with very difficult questions. But 
I think we can all acknowledge that those within government--
and I spent half of my career with the government--can isolate 
the real impact of their decisions and accept that impact as an 
acceptable cost to them of reaching a goal. Now, the fact that 
Congress, in some cases, imposes perhaps unrealistic deadlines 
on these same agencies, needless to say, makes that rationale 
all the easier sometimes.
    Now, in the business community, we hesitate to be critical 
in this area of the government because, frankly, we are then 
sometimes accused of being not sensitive enough to national 
security concerns. Well, we are sensitive, but there are 
problems here and they need to be laid out. And in my written 
testimony, I have covered many examples which we have gathered 
from the American AmChams, which is the American Chambers 
abroad, from member companies. Each one is an individual story 
and each one, taken individually, may not seem like that big of 
a deal, except to those people who are immediately affected. 
But taken as a whole, I think they accurately paint a picture, 
a mosaic that everything is not as kosher or OK as the prior 
panel seemed to imply.
    I mean, there are problems out there. And certainly many of 
the questions of the Members made that clear also.
    Now, why is all of this important? Should it matter if 
people can travel to the United States in a timely manner, even 
after the tragic day of September 11? Well, yes, it does, 
because the Nation's business, their workers and the economy 
benefit from such international commerce.
    It is important that a potential customer from overseas can 
visit the United States to examine and, hopefully, purchase 
products. It is important that visitors can come and, frankly, 
spend their money here and not in other countries. It is 
important sometimes that the business community has access to 
available labor when there is not domestic labor available.
    Now, Congress has a visa system established, but a visa 
system that doesn't work because of significant delays is not a 
visa system at all. So we need to find a way to make the law 
that is on the books work. We made our concerns to the State 
Department and other government agencies known. We frankly feel 
that our concerns are not even given a fair hearing, that the 
concerns of the business community are not weighted as heavily 
as they should be.
    That being said, we look forward certainly to working with 
the government as we work through these difficult issues in the 
future, and certainly this hearing is helpful to us in doing 
that. We appreciate that.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T9397.045
    
    [GRAPHIC] [TIFF OMITTED] T9397.046
    
    [GRAPHIC] [TIFF OMITTED] T9397.047
    
    [GRAPHIC] [TIFF OMITTED] T9397.048
    
    [GRAPHIC] [TIFF OMITTED] T9397.049
    
    [GRAPHIC] [TIFF OMITTED] T9397.050
    
    [GRAPHIC] [TIFF OMITTED] T9397.051
    
    [GRAPHIC] [TIFF OMITTED] T9397.052
    
    [GRAPHIC] [TIFF OMITTED] T9397.053
    
    [GRAPHIC] [TIFF OMITTED] T9397.054
    
    [GRAPHIC] [TIFF OMITTED] T9397.055
    
    [GRAPHIC] [TIFF OMITTED] T9397.056
    
    [GRAPHIC] [TIFF OMITTED] T9397.057
    
    [GRAPHIC] [TIFF OMITTED] T9397.058
    
    Chairman Tom Davis. Mr. Pettler, thanks for being with us.
    Mr. Pettler. Good morning, Chairman Davis, Ranking Member 
Waxman, distinguished members of the committee. These hearings 
provide an opportunity to begin a dialog for change, a 
partnership, so to speak, between business and government, the 
common objective of which is to maintain U.S. competitiveness 
and economic interests while improving the security of our 
borders and the effectiveness of our visa process.
    Since September 11, it has become increasingly evident that 
our government agencies are not communicating sufficiently with 
one another. The first step toward a solution is to make sure 
that all interested government stakeholders are provided needed 
input to policy and process decisions. Unfortunately, this is 
not happening on a consistent basis.
    For example, under the Visas Mantis screening process, 
information elicited by consular officers is forwarded for 
necessary technical analysis by the Department of Commerce 
through industry and security. The Department of State has 
formed a working group to address these protocols, but for 
whatever reason, the Department of Commerce is not a full 
participant. This is simply not effective from a planning or an 
implementation standpoint.
    Second, we need to avoid duplication of agency that causes 
unnecessary delay. Foreign nationals who require an export 
license for access to sensitive technology undergo an extremely 
rigorous background review as part of the licensing process. 
However, when that same individual applies for a visa, a de 
novo review is conducted without regard to the previous 
clearance.
    In another example, the Bureau of Citizenship and 
Immigration Services conducts a background review prior to 
approval of certain nonimmigrant visa petitions. The BCIS 
clears the individual, approves the petition; but when the 
subject takes the approval and applies for a visa at a 
consulate, the Department of State conducts ostensibly the same 
check a second time, predictably with the same negative result.
    The consolidation of visa policy in the Department of 
Homeland Security provides a unique opportunity for increased 
coordination, yet it is not clear that all interested agencies 
and bureaus are being consulted or that agency processes are in 
synch. This clearly must change.
    A second area of focus should be industry-government 
cooperation. We recommend that an industry-government advisory 
panel be established. This panel could, for example, explore 
precertification programs to streamline all or parts of the 
visa application process for companies with proven immigration 
and export control compliance programs.
    A precedent for this approach exists in the customs arena. 
Under the Customs-Trade Partnership Against Terrorism 
initiative, participating companies play a cooperative role and 
receive expedited clearances and a reduced number of 
inspections for their cargos. A similar effort should be 
considered with respect to the movement of people.
    Improved communication with the U.S. business community is 
necessary for both corporate planning and corporate security. 
Companies can prepare and make the necessary contingency plans 
if they simply know the rules sufficiently in advance. From a 
corporate security standpoint, companies want and need to know 
whether an employee poses a security risk in order to take 
necessary steps to mitigate possible breaches and to protect 
the propriety interests and those of their customers and 
business partner.
    As we have heard, effective August 1, new guidelines will 
substantially increase the number of nonimmigrant visa 
applicants required to appear for personal interviews. What had 
been a 1-day process to certain folks may now require weeks, if 
not months, for an appointment followed by an additional hiatus 
for security reviews to be conducted.
    The threshold question is whether universal interviews are 
useful and necessary. Leaving that aside and assuming the 
guidelines are implemented, what can be done to create 
efficiencies? Ideally, a visa applicant anywhere in the world 
should be able to go on the Internet, schedule an appointment 
utilizing an automated appointment system, and at the same 
time, submit his or her visa application online; upon receipt 
of the application, the consul would immediately commence any 
relevant security review so that, barring any complications, 
the visa could be issued on the day of the interview.
    Automated and electronic processes save time and government 
resources. Electronic filing and other innovations such as 
digital signatures prevent fraud and protect the integrity of 
documents. These technologies must be linked with other planned 
technology enhancements, such as biometric identifiers, 
machine-readable passports and visas, and the U.S. VISIT system 
to ensure a coordinated effort.
    The U.S. business community has a shared interest in 
national security and achieving efficiencies in global 
mobility. U.S. industry, with its advanced technology, stands 
ready and willing to participate in a cooperative effort with 
government agencies. If such a partnership can work in the 
customs arena, it can and must work here as well.
    I have submitted a full statement for the record and look 
forward to answering any questions you may have. Thank you very 
much.
    Chairman Tom Davis. Well, thank you very much.
    [The prepared statement of Mr. Pettler follows:]

    [GRAPHIC] [TIFF OMITTED] T9397.061
    
    [GRAPHIC] [TIFF OMITTED] T9397.062
    
    [GRAPHIC] [TIFF OMITTED] T9397.063
    
    [GRAPHIC] [TIFF OMITTED] T9397.064
    
    [GRAPHIC] [TIFF OMITTED] T9397.065
    
    Chairman Tom Davis. Let me just start. Mr. Pettler 
suggested a private industry advisory panel.
    What are your opinions on that, Mr. Marks?
    Mr. Marks. Excuse me?
    Chairman Tom Davis. Mr. Pettler has suggested a private 
industry advisory panel.
    Mr. Marks. I think the concept, Mr. Chairman, of including 
the private sector in the decisionmaking process and in the 
guidance of the program is a very good idea, because we have 
been left somewhat in the cold after a long and very good 
relationship with the State Department.
    In this particular case, it has just been a directive, this 
is what it will be, with little opportunity to share with those 
people that influence travel around this world and those folks 
that travel to the United States of America; and we are left a 
little bit holding the bag in this case.
    But we just haven't been able to tell our story. Had there 
been a private sector panel involved from the get-go, I think 
we may have mitigated some of these issues.
    Chairman Tom Davis. Airlines are the first line of defense 
in passport checks. What are they saying about the upcoming 
requirements and is there any impact on bookings?
    Mr. Marks. Well, clearly, anything that we do that deters 
booking an airline passage to America is going to hurt our 
economy.
    You have to remember, we are in a very competitive 
environment. This isn't just a matter of my home city of San 
Francisco competing for business against Los Angeles or New 
York, but we are competing against Spain. We are competing 
against Switzerland. We are competing against all areas of the 
world, and the more difficult we make it for someone to enter 
this country, the harder it will be and the more it will cost 
us economically.
    Now, at the same time, we are extraordinarily sensitive to 
homeland security. But it shouldn't be an either/or situation; 
both are terribly important. And we just need to be perceived 
as something other than Fortress America.
    And I would just add, I was participating in a press 
conference in Geneva at a Global Summit on Peace Through 
Tourism earlier this year. And that was the first question 
asked of me as I sat alongside the former mayor of Tel Aviv and 
a minister from Jordan, fully assuming they would get the first 
question. But, rather, it came to me, and it was, ``Tell us 
what it is like in Fortress America.''
    That doesn't send a very good sales message.
    Chairman Tom Davis. No. But to what extent do travelers 
seem to be choosing other countries for tourism, to go to on 
vacation or to conduct business as a result of our increased 
requirements? Are you seeing that?
    Mr. Marks. Well, the----
    Chairman Tom Davis. I will ask that to you and Mr. Johnson.
    Mr. Marks. There is no question that our country has lost 
market share. In fact, we have lost some 37 percent of market 
share of world travel and tourism in the last decade. There are 
many things that can probably come into play here, one being 
that this country has not been as effective marketing from a 
national perspective as maybe others have.
    Congress has just put $50 million to the Department of 
Commerce to, hopefully, solve some of this problem. But we are 
doing that also at a time when we are making it more difficult 
in order to achieve entry into this country.
    The longer the lines that we have for people applying for 
visas--and those situations where the machine-readable 
passports are not yet totally in vogue, if you will, because 
this was going to begin in 2007; it was we, after the USA 
Patriot Act moved us forward to 2003.
    It just seems to me, based on the feedback that we have 
gotten from international tour operators--and we were just 
together at what we call the ``International Pow-Wow,'' which 
is the one time of the year our country brings together about 
4,000 people to sell and buy the U.S. travel product. For the 
more than 1,000 buyers that were here, they are very, very 
concerned about our ability to facilitate their travel, 
particularly from those countries that require visas.
    I will give you a very specific example. In Brazil, we have 
one embassy and three consulates. We are now requiring personal 
interviews in Brazil. And, again, personal interviews can work 
if it is--the personnel are there to do it. But in a directive 
from Secretary Powell to all of the consulates, it is very 
clear in that May 21 directive that this is to be done without 
any additional expense or workload or overtime. So I don't know 
how we do that in Brazil.
    A family not living in Sao Paulo, Rio, Brasilia or one 
other city that I don't recall, that--where we have a 
consulate, it seems to me that they are going to have to make a 
trip just for the purpose of having the personal interview to 
make the ultimate trip--to come to America. Now, if I am one of 
those families in a very large country that has to go through 
that time and expense, I am going to think very hard about 
that. I may choose to go somewhere where it is just a little 
bit easier.
    Chairman Tom Davis. Any comments from you?
    Mr. Johnson. Mr. Chairman, with regard to the advisory 
council--and certainly we support that concept--I have seen 
enough of those to know that, depending on how the details are 
written in the implementing legislation, how they are staffed 
will determine whether or not the agency involved actually 
listens to that council. So in a setting like that, some 
attention has to be given to those kinds of details. Certainly 
we would like to be helpful on that.
    With regard to problems out there what we are hearing, you 
know, we do have these examples in our testimony. But I think 
the better test is where the rubber meets the road. We are 
hearing from the American Chambers abroad, we are hearing from 
our member companies that they are having serious issues with 
what is going on and we are trying to meet their needs.
    They don't come to the Chamber until they have really 
exhausted their own resources to try and work through these 
problems. We are sort of at the top here in Washington, 
removed, and it is kind of like a last--let's go to Washington 
and get some help because we can't figure out this mess.
    That is what brings us here today. It is a serious problem.
    Chairman Tom Davis. Thank you. My time is up. I am going to 
recognize Mr. Bell.
    Mr. Bell. Thank you, Mr. Chairman.
    Mr. Marks, I am curious if you were here for the previous 
panel. I believe you were. You may have heard me refer to the 
phrase, ``unintended consequences,'' and I guess if there was 
no communication whatsoever prior to the new measures being 
implemented, it was sort of impossible to avoid unintended 
consequences. Would you agree with that?
    Mr. Marks. Absolutely, Congressman. Like you, we in San 
Francisco have a large medical center at the University of 
California that has had some similar issues that you shared 
earlier. There is no question that we have not done a good job 
of telling this story. And the travel and tourism industry has 
not been asked to help engage in telling that story.
    We have 37 Visit USA committees around the world, people 
whose only intent in life is to help direct visitation to our 
country. These are people that work at no cost on our behalf. 
They represent both U.S. companies and they represent 
international tour operators that send people here. That is 
really the communications link.
    And we have some other issues falling through the cracks 
when it comes to a Web site. I mean, we have a Web site that 
links to visas. It is in English. You know, we have been 
promised that this was going to be put into five different 
languages, but it is in English. If you are sitting in Japan or 
in Germany, you just can't assume that everyone speaks English.
    And there are also some linkage problems, we understand, 
between our consulates in the field and the State Department.
    Mr. Bell. And just so it will be clear also, since I talked 
about the--what the impact on the medical industry, 
previously--it is not an expression that I am necessarily fond 
of--medical tourism really doesn't paint the picture of 
everyone's favorite vacation.
    But that is a very real piece of business here in the 
United States, is it not, people traveling to the United States 
for medical reasons?
    Mr. Marks. Congressman, it is a very real piece of 
business, because probably in 99.9 percent of the cases, the 
person seeking the treatment, consultation, whatever it may be, 
has family members traveling with him or her, along the way.
    And so, in fact, they are filling hotel rooms, they are 
eating in restaurants and, yes, they are probably doing some 
things along the way to maybe take their mind off the 
seriousness of what the original intent of that trip may have 
been. So it is very real.
    Mr. Bell. Is there any kind of estimate that any of you may 
have on the dollars associated with that kind of tourism?
    Mr. Marks. I would not have that available.
    Mr. Bell. And we have talked about outreach efforts now, 
and working with business to let them know about the new 
requirements. But in your way of thinking--and any of you can 
speak to this--is that really the problem?
    There seems--at least in my district there seems to be a 
full understanding of what the requirements are. It is just, 
the impact that the requirements are having is what the concern 
is.
    And my question is, is there any discussion taking place in 
that regard now between the private sector now that we have 
realized some of the unintended consequences to address those?
    Mr. Marks. I think I would start by coming right back to 
the fact that, as Mr. Johnson said, that is one of the reasons 
I think we are here today. And the fact simply is, when 
something is put forward, it will happen on this date, it is 
not widely circulated; I don't believe it is widely circulated 
amongst those of us on this end.
    We certainly understand it, but the message is being 
received in these countries that are sending visitors our way 
in a very negative way; and what just doesn't seem to connect 
is the fact that the State Department was given by Congress the 
ability to waive machine-readable passports, a timing issue 
that will allow them to have an orderly transition to this. 
Because everybody agrees this is the right way to go; no one 
will disagree with that, I don't believe.
    On the issue of the personal interviews for the visa 
scenario, that is a whole different issue. That is a resource 
issue. And we are not objecting to the personal interviews, 
although from a marketing perspective, it isn't viewed as 
friendly. We certainly accept and understand that.
    So if you are going to do it, you have to do it in such a 
way that people have the ability to be assured, if I have an 
appointment on this day, I can get a visa, it will be done in a 
timely fashion unless they find something out; and we just 
don't have the people to do that.
    If we are doing 27 percent out of South Korea, and they say 
they are maxed, how can we expect to reach the--I think it is a 
90 percent guide that has been required. How do we get there?
    Mr. Bell. I think the emphasis has to be on the timely 
fashion aspect, because that seems to be what is driving people 
to other places. And as you point out, there is global 
competition in all of those areas now.
    But thank you all for being here today. I appreciate it.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman. I might pick up a bit 
on what my colleague from Texas, I think, was trying to drive 
at as well; and that is just education, I suppose, of letting 
people know exactly what the requirements are and what their 
expectations are.
    And to the Chamber, Mr. Johnson, I am just wondering, are 
you working with your local chamber affiliates throughout the 
Nation as well as overseas in some of your consular offices?
    Mr. Johnson. Well, we are in the entry/exit issue in the 
U.S. visa system. I think, coming back to the prior 
questioning, too, if we had better lead time on these 
announcements from State and other groups, we could then--two 
things.
    Frankly, we would like to get some lead time so we can have 
some input with regard to, hey, maybe this isn't the right way 
to go. And in doing that, we could collect information from our 
American chambers abroad and local chambers--and in this case, 
it would be mostly local along the borders--and get some 
feedback as to some factors you might want to look at.
    If you are not willing to go that far, at least give us 
lead time so that we can get it out to the American chambers 
abroad and our local and State chambers. We have that apparatus 
and fortunately most of it now is on e-mail, which is how we 
are able to gather the information we did for our testimony.
    But give us the stuff ahead of time.
    And maybe they don't want to because maybe the feedback 
might be negative. But that is how people are going to learn 
about these things.
    And the employers over here in the medical community, they 
are very sophisticated. I would say they are atypical. They 
have lawyers tracking this stuff. But most people, they just 
want to go on a trip or come to the country for a while.
    Mrs. Miller. Is there a public hearing time now, through 
State, if you are talking about some lead time, whether from 
the Department of State or even from the Department of Homeland 
Security? Obviously they need to communicate better in some 
format.
    Maybe you can give us some feedback on what kind of lead do 
you need, actually?
    Mr. Johnson. I don't know of any hearings that they've set 
up on any of these issues. I am on the Data Management 
Information Task Force and so we go on our separate trips to 
listen to stakeholders and try to give the feedback back to 
DHS.
    Mrs. Miller. A comment as well to Mr. Pettler: I know you 
were speaking about some of the different licensing 
requirements that many of the other agencies might have, and I 
think you talked about driver's license requirements. Let me 
mention to you, as a former Michigan Secretary of State whose 
job it was to do motor vehicle administration, particularly 
after September 11, we found that--it was actually the case in 
our State, and I have now subsequently found in most States, 
that there is a requirement, even if the Department of Motor 
Vehicles knows that you are in the country illegally, if you 
are here as an illegal alien, we are required, for example, 
under Michigan law to give you a driver's license or a State 
identification card; and we have been unable to change the law 
in Michigan. That will be one of the things I will be working 
on as a Member of Congress, the possibility of a national 
driver's license.
    The licensing requirements are probably the most porous 
security breach that we have in our Nation as well. We would 
like to--I think many of the people in the motor vehicle 
business would like to work more closely with perhaps licensing 
people that are here as people with visas and that type of 
thing. I just make that comment.
    Also, Mr. Marks, one other question as well. You 
mentioned--trying to take some notes you were mentioning what I 
felt were startling numbers. I think you used South Korea as an 
example about the business travel and that kind of thing, the 
subsequent loss of dollars. You were also asking for a time 
extension or a waiver, which would seem to me to be--and I 
think you mentioned 18 months, which would seem to me to be a 
security breach.
    But do you have any ideas that would really ensure national 
security and at the same time try to mitigate some of the 
problems that you've articulated?
    Mr. Marks. First and foremost, as I said in my testimony 
and as I said just a moment ago, the notion of homeland 
security and economic security truly are not coequals. But one 
cannot be overlooked for the other; I think we need to make 
that clear.
    In terms of the timing issues, when it comes to the 
machine-readable passports, to begin with, these are our 
trading partners. These are the 27 countries that we have 
strong relationships with, like Spain, the United Kingdom, 
Japan, Switzerland and even France, the point being we are 
starting at a destination where we are dealing, we believe, 
with low-risk situations.
    And so to give them, if you will, their head just a bit to 
implement the machine-readable passport, because what we don't 
know the result of will at this point be if someone appears at 
an airline stand in a country with a machine-readable passport, 
but they have the old one, by law the airline won't be able to 
board that individual. Some will because you know that is just 
going to happen, so they are going to end up in the United 
States.
    Are we going to deport them or will they need then to apply 
for a visa here? It becomes a very confusing issue. And there 
doesn't seem to be much clarity between the State Department 
and Department of Homeland Security in this matter.
    We do think, going back--the original date was 2007, and 
these 27 countries have known that for a long time; following 
the USA Patriot Act, following the events of September 11, that 
was moved up to this October, and just about everyone is making 
a pretty good attempt to get this done. The United Kingdom and 
Japan are just about there. Others are getting close, but there 
are countries--France, trading partners, that have only begun 
the process. They are just not there, but we think even just 
given a little bit of a window, they can succeed.
    On the other issue of the personal interviews, once again, 
the PR marketing spin aside, I understand the need for and have 
no problem with it. We just have to be able to put the 
resources behind it so it doesn't become a black eye on our 
country, so it isn't an unimaginable situation with lines going 
around blocks, people having to take trips waiting 2 days, pay 
for one trip to take the ultimate trip. At that stage of the 
game, I just think we will find ourselves in a terrible 
situation from a competitive standpoint having lost market 
share, as I indicated, over the past decade of some 37 percent.
    And I will tell you in my home city of San Francisco, where 
I spend the vast majority of my life, we have been hit even 
harder than that. And the reason for it is that we are a major 
gateway city. And if you would have talked to New York, San 
Francisco, Los Angeles, Miami, Boston, talk to some of our 
major gateways, I think they will sing similar tunes.
    Mr. Pettler. Excuse me, Congressman. If I may add something 
to that, to the issue of unintended consequences, I think one 
thing we haven't talked about here is that other countries are 
looking at what we do. And there is certainly the risk that if 
we take too aggressive an approach in these situations, we may 
see other countries reciprocating in kind, against U.S. 
individuals who are seeking visas to enter those destinations, 
and it could have a collateral damage effect in that regard.
    Getting back to your comment about licenses, I was 
referring more to the export control licenses which are 
licenses that the U.S. Government, in many cases, if 
applicable, require that companies obtain prior to release of 
certain sensitive technologies to foreign nationals. And that 
process is collateral with the visa issuing process. There is a 
screen that takes place as part of that.
    Just overall and just addressing the overall problem and 
leaving machine-readable passports aside, I agree with the 
other speakers that it is primarily a resource issue when it 
comes to the concern about the interview situation. If we can 
throw enough resources there, we can put some dent into those 
timeframes.
    I think, no matter what we do, we are going to see delays 
and have a universal mandatory interview requirement. I also 
think the process is extremely important. If you look at the 
report that came out from the GAO, that talked about watch 
lists and the need for better coordination between agencies and 
these various watch lists, what we find is, nine different 
agencies of the Federal Government have 12 different watch 
lists. They have been developed independent of one another 
based upon criteria and mission statements of those agencies. 
There is a need to coordinate those better.
    I think in the end result, we will see a point down the 
line where there's going to be at the terminal, where the 
consular officer sits, the ability for that consular officer to 
go in and run the clearance on-line in real-time on these name-
check issues.
    I think the issues of the technology reviews, which require 
more in-depth technical analysis, that cannot be done by a 
consular officer. That has to be referred back to the 
appropriate agencies--Department of Commerce, one of those--for 
more intensive review. But that process needs to be refined.
    I can envision a time, if we really get on it and we deploy 
our technology, where we can have a situation that even with an 
interview being mandatory, we can turn this around in a much 
more acceptable period of time. We are not anywhere near there 
now. We are not utilizing the right tools nor do we have the 
necessary coordination to see that on the immediate horizon.
    Chairman Tom Davis. Thank you very much.
    Mr. Platts, any questions?
    Let me thank our witnesses for appearing today, and I want 
to thank the staff who worked on this hearing and Foreign 
Service Officers Landon Taylor and Nick Fetchko who provided 
assistance to the staff who traveled to Latvia and Germany for 
this hearing.
    I want to add that the record will be kept open for 2 weeks 
to allow witnesses to include other information in the record 
if something occurs to you that would be very helpful to us. We 
are going to continue to monitor this. It is very, very 
important from a lot of different perspectives; and we will 
stay on top of it with your assistance.
    Thank you very much and the hearing is adjourned.
    [Whereupon, at 12:20 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Christopher Shays, Hon. 
Elijah E. Cummings, and additional information submitted for 
the hearing record follows:]

[GRAPHIC] [TIFF OMITTED] T9397.066

[GRAPHIC] [TIFF OMITTED] T9397.067

[GRAPHIC] [TIFF OMITTED] T9397.068

[GRAPHIC] [TIFF OMITTED] T9397.069

[GRAPHIC] [TIFF OMITTED] T9397.070

[GRAPHIC] [TIFF OMITTED] T9397.071

[GRAPHIC] [TIFF OMITTED] T9397.072

[GRAPHIC] [TIFF OMITTED] T9397.073

[GRAPHIC] [TIFF OMITTED] T9397.074

[GRAPHIC] [TIFF OMITTED] T9397.075

[GRAPHIC] [TIFF OMITTED] T9397.076

[GRAPHIC] [TIFF OMITTED] T9397.077

[GRAPHIC] [TIFF OMITTED] T9397.078

[GRAPHIC] [TIFF OMITTED] T9397.079

[GRAPHIC] [TIFF OMITTED] T9397.080

[GRAPHIC] [TIFF OMITTED] T9397.081

[GRAPHIC] [TIFF OMITTED] T9397.082

[GRAPHIC] [TIFF OMITTED] T9397.083

[GRAPHIC] [TIFF OMITTED] T9397.084

[GRAPHIC] [TIFF OMITTED] T9397.085

[GRAPHIC] [TIFF OMITTED] T9397.086

[GRAPHIC] [TIFF OMITTED] T9397.087

[GRAPHIC] [TIFF OMITTED] T9397.088

[GRAPHIC] [TIFF OMITTED] T9397.089

[GRAPHIC] [TIFF OMITTED] T9397.090

[GRAPHIC] [TIFF OMITTED] T9397.091

[GRAPHIC] [TIFF OMITTED] T9397.092

[GRAPHIC] [TIFF OMITTED] T9397.093

[GRAPHIC] [TIFF OMITTED] T9397.094

[GRAPHIC] [TIFF OMITTED] T9397.095

[GRAPHIC] [TIFF OMITTED] T9397.096

                                   

</pre></body></html>
